<html>
<title> - DEPARTMENT OF DEFENSE'S QUADRENNIAL DEFENSE REVIEW (QDR)</title>
<body><pre>[Senate Hearing 107-394]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-394
 
        DEPARTMENT OF DEFENSE'S QUADRENNIAL DEFENSE REVIEW (QDR)

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2001

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
77-281 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

        Department of Defense's Quadrennial Defense Review (QDR)

                            october 4, 2001

                                                                   Page

Wolfowitz, Hon. Paul, Deputy Secretary of Defense; Accompanied by 
  Lt. Gen. Bruce Carlson, U.S. Air Force, Director for Force 
  Structure, Resources and Assessment, Joint Staff...............    84

                                 (iii)


        DEPARTMENT OF DEFENSE'S QUADRENNIAL DEFENSE REVIEW (QDR)

                              ----------                              


                       THURSDAY, OCTOBER 4, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:05 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Carnahan, 
Warner, Inhofe, Roberts, Hutchinson, Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard D. DeBobes, counsel; Evelyn N. Farkas, 
professional staff member; Creighton Greene, professional staff 
member; Maren Leed, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Arun A. 
Seraphin, professional staff member; and Terence P. Szuplat, 
professional staff member.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Edward H. Edens 
IV, professional staff member; Brian R. Green, professional 
staff member; Gary M. Hall, professional staff member; Carolyn 
M. Hanna, professional staff member; Ambrose R. Hock, 
professional staff member; Patricia L. Lewis, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Ann M. Mittermeyer, minority counsel; Suzanne K. L. Ross, 
research assistant; Joseph T. Sixeas, professional staff 
member; Cord A. Sterling, professional staff member; Scott W. 
Stucky, minority counsel; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Dara R. Alpert, Gabriella Eisen, 
Thomas C. Moore, and Nicholas W. West.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Neal Orringer, 
assistant to Senator Carnahan; Wayne Glass, assistant to 
Senator Bingaman; J. Mark Powers, assistant to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry, assistant to Senator Roberts; James P. Dohoney, 
Jr., assistant to Senator Hutchinson; Arch Galloway II, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to receive testimony on the Quadrennial Defense 
Review (QDR) from Deputy Secretary of Defense Paul Wolfowitz 
and Lt. Gen. Bruce Carlson, Director for Force Structure, 
Resources and Assessment on the Joint Staff. Deputy Secretary 
of Defense Wolfowitz played a key role in overseeing and 
shaping the QDR. Lt. Gen. Bruce Carlson played a leading role 
in ensuring that this review took account of the views of the 
military leadership, and we welcome you both to the committee 
this morning.
    Before we begin, allow me just to take a moment to commend 
our civilian defense and military leadership for the 
outstanding professionalism and the dedication that they have 
shown in the weeks since the horrific attacks of September 11. 
Everyone in this country and the international community now 
knows in this war on terrorism our unity is strong.
    This committee and entire Congress stands with the 
President as we track down, root out, and relentlessly pursue 
the terrorists and their networks behind those attacks, and go 
after the states that support and harbor those terrorists and 
those networks.
    Congress established the Quadrennial Defense Review in 1999 
to ensure a regular and comprehensive examination of our 
Nation's defense strategy and force structure best suited to 
implement that strategy. Congress intended the QDR to be the 
road map that the Department of Defense and Congress would 
follow in building the future years defense program.
    This year the QDR assumed special significance because 
Secretary of Defense Donald Rumsfeld testified it would include 
the results of his Defense Strategy Review and would play a 
major role in shaping the administration's fiscal year 2003 
budget request. In his assessment of this QDR, the outgoing 
Chairman of the Joint Chiefs of Staff, Gen. Hugh Shelton, 
stated that the strategy and recommendations that it outlines 
``are a major step toward'' meeting the twin challenges of 
ensuring that U.S. forces can protect and advance U.S. 
interests in the near term as well as transform to meet future 
security challenges.
    However, he also stated that, ``While the QDR sets the 
broad direction for transforming to meet defense demands of the 
future, there remains a need for a more comprehensive road map 
that will sustain the tenuous balance between strategy and 
resources.''
    This QDR seems to me to be full of decisions deferred. 
``Decisions'' are often couched in the future tense--decisions 
that will be made or actions that will be taken at some 
undefined point in the future. Indeed, as the QDR states, 
``This report represents not so much an end but a beginning.'' 
Rather than the comprehensive road map to the force of the 
future envisioned by Congress, this review largely, to borrow 
General Shelton's words, ``provides a vision.''
    Included in this vision are several conceptual changes that 
are collectively termed a ``paradigm shift'' for a ``new force-
sizing construct.'' Each of these changes raises important 
questions for this committee and for this country. First, 
homeland security is ``restored'' as the military's ``highest 
priority.'' In the wake of the September 11 terrorist attacks, 
the need for homeland defense is surely clearer than ever. But 
less clear from the QDR is how the military will rearrange 
itself to prevent terrorist attacks on U.S. soil and support 
civilian authorities in managing their deadly consequences, or 
how the military will interact with the new Office of Homeland 
Security.
    The new Chairman of the Joint Chiefs of Staff, General 
Richard Meyers, testified at his confirmation hearing 3 weeks 
ago that, ``this whole issue of homeland defense or homeland 
security needs a lot more thought.'' The committee looks 
forward to specifics on the administration's thinking on this 
important issue within the context of its overall defense 
review and strategy.
    Second, the QDR embraces a so-called ``capabilities-based 
model'' for planning purposes that emphasizes how an adversary 
might challenge U.S. forces rather than where that challenge 
might occur. The QDR report acknowledges that this approach is 
a ``concept,'' and the committee welcomes testimony on the 
specific implications that this conceptual approach will have 
on how we modernize, size, and deploy our Armed Forces.
    Finally, the QDR states that U.S. forces must ``remain 
capable of swiftly defeating attacks against U.S. allies and 
friends in any two theaters of operation in overlapping 
timeframes'' and that U.S. forces must be capable of 
``decisively defeating an adversary in one of the two theaters 
in which U.S. forces are conducting major combat operations by 
imposing America's will and removing any future threat it could 
pose.'' The committee welcomes testimony of the specifics 
behind such a strategy, whether and how such a strategy would 
impact force structure, and how this strategy differs from the 
existing requirement that U.S. forces be able to fight two 
Major Theater Wars (MTWs) nearly simultaneously.
    In my judgment, as well as that of many others, terrorism 
is the most immediate threat to our security. It has also been 
a concern to many of my colleagues, particularly those on the 
Emerging Threats and Capabilities Subcommittee, as well as 
former colleagues Senators Gary Hart and Warren Rudman. 
However, even as we address this most immediate and significant 
threat, we must remember it is not the only threat. The United 
States must maintain ready and versatile military forces 
capable of conducting other operations, from deterring and 
defeating large-scale cross-border aggression to participating 
in smaller-scale contingencies, to dealing with drug 
trafficking. We needed military forces to meet all these 
threats before September 11, and we need military forces to 
meet these threats after September 11.
    Senator Warner and I asked the General Accounting Office 
(GAO) to conduct a review of the Quadrennial Defense Review in 
the coming months, and I know that the Department will 
cooperate with the GAO in its effort to analyze the QDR for the 
committee.
    Today's hearing will be the first in a series over the 
coming weeks, including hearings to receive testimony from 
experienced outside observers on the QDR and testimony from the 
Intelligence Community on the terrorist threat to the United 
States. This committee is determined to work with the 
administration to use our military forces wisely, to preserve a 
high quality of life for U.S. forces and their families, to 
sustain readiness, and to transform the Armed Forces to meet 
the threats and the challenges of tomorrow.
    I am going to call on Senator Warner and ask that Senator 
Carnahan's statement and a copy of the QDR be inserted in the 
record after his remarks. Before I do so I wanted to say the 
following. It is necessary that Secretary Wolfowitz leave at 
noon, which is a change in our schedule and which we are happy 
to make to accommodate him. However, that then requires that we 
continue this hearing with Secretary Wolfowitz and General 
Carlson at a later time.
    We do want to accommodate Deputy Secretary Wolfowitz and so 
after Senator Warner has his opening statement we will turn to 
Secretary Wolfowitz and General Carlson for their statements. 
We will then have just a few minutes today to each ask 
questions, and we will pick that up at a later time. Senator 
Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. In view of the 
schedule of our distinguished guest and witness here this 
morning, I will defer delivering my statement, asking that it 
be put in the record along with the statements of Senator 
Thurmond and Senator Sessions. I will make two brief 
observations.
    Our President, George Bush, has acted with extraordinary 
courage in the aftermath of September 11. I look back to his 
landmark speech at The Citadel when he gave his vision as a 
candidate for President as to how our national security 
structure should be reshaped to meet the changing threats of 
the world. It is just remarkable to think that that was done 
months and months before he was elected President and then of 
course this incident.
    I know from speaking with you that the Department was 
moving in several directions prior to September 11. 
Understandably you had to retrench in this document to meet the 
deadlines of issuing it, which were important. At the same time 
you had to leave the document flexible, such that as you 
continue to learn from the 11th and the changing threats to the 
world--threats that we really never envisioned could have 
happened--you could move forward with directing the security 
policy of this country.
    A difficult task, Mr. Secretary and General, and I commend 
the Secretary of Defense, yourselves, and the former Chairman 
of the Joint Chiefs of Staff, and now the present chairman, the 
present chairman having had a great deal to do with this 
document in the preparation of it.
    Thank you very much, Mr. Chairman.
    [The prepared statements of Senators Carnahan, Warner, 
Thurmond, Sessions and the QDR Report follow:]

              Prepared Statement by Senator Jean Carnahan

    Thank you Mr. Chairman. I wish to welcome Secretary Wolfowitz and 
General Carlson. Today, we will begin to assess the findings and 
recommendations of the Quadrennial Defense Review. As the primary 
blueprint of America's military, this document must lay out clear 
objectives for the size, shape, and posture of the United States Armed 
Services.
    The world changed September 11, 2001, and the Armed Forces must 
transform to meet the needs of today's security environment. I hope 
that we will use this hearing to clarify the Defense Department's role 
in confronting terrorist threats, and determine the future structure of 
our military establishment.
    I believe that this QDR proposes several improvements in force 
planning to meet the most pressing threats to our Nation. Previously, 
the military was designed according to a strategy for fighting two 
major theater wars, simultaneously. In addition, the Armed Services 
prepared for combat against particular nations that might threaten 
vital American interests.
    The new QDR proposes a different approach--the creation of a 
``capabilities-based'' force. Rather than anticipate wars against 
specific nations, the Defense Department will try to design its 
requirements according to the United States' actual defense needs. Our 
capabilities will be shaped by the missions the United States is most 
likely to pursue. Instead of a two-major theater war strategy, the 
military will effectively prepare for homeland defense, small 
contingencies, peacekeeping, and weapons of mass destruction 
protection. 
    The new QDR is not a model of clarity. While defining several 
military requirements and potential threats to American security, it 
uses a great deal of ambiguous language to outline the shape of 
military's transformation.
    But upon review, I believe it does promote a sound military 
structure for the future that will meet the security demands of the 
21st century. I believe to fulfill the requirements of this document we 
will need:

        <bullet> strong investments in airlift platforms, such as C-
        17s;
        <bullet> a bigger long range bomber arsenal with modern 
        aircraft such as the B-2;
        <bullet> continued advancements in tactical aircraft for all 
        the services;
        <bullet> greater joint capabilities; and
        <bullet> improvements in our readiness to address assymetric 
        threats, such as chemical and biological weapons

This means we must be ready to defend America's interests at home and 
abroad at a moment's notice.
    Mr. Chairman, let me just conclude by highlighting one particularly 
significant sentence in this document: ``Protecting the American 
homeland from attack is the foremost responsibility of the U.S. Armed 
Forces.'' America's military is currently mobilizing to do just that. I 
believe that armed with a suitable vision for transformation we will be 
ready to take on these threats. We will win this war on terrorism, and 
we will continue to prepare our forces to meet the emerging dangers of 
the 21st century.
                                 ______
                                 
               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman and thank you for holding this important 
hearing on the Defense Department's Quadrennial Defense Review. I join 
you in welcoming Deputy Secretary Wolfowitz back before the committee, 
and in welcoming Lieutenant General Carlson, the Director for Force 
Structure, Resources and Assessment, for the Joint Staff. We look 
forward to your testimony.
    As mandated by Congress, we received the QDR report this week. It 
is important to note, this is not the end of a process, but the 
beginning. It is the beginning of implementing the vision our President 
laid out in speeches at the Citadel in September 1999 and at the 
National Defense University in May 2001, when he called for a primary 
emphasis on homeland security and the transformation of our Armed 
Forces to be able to deter, detect and defeat the very different 
threats we will face in the 21st century. It is the beginning, also, of 
the dialogue between Congress and the executive branch on providing the 
resources to fully support this new national military strategy.
    This is clearly a critical juncture in our military history, and in 
the history of our Nation. Even before the tragic events of September 
11, the United States had assumed a unique leadership role in the 
world, especially in the realm of international security. In the 
aftermath of the cowardly acts of terrorism of September 11, virtually 
all of the civilized world has been shocked into the recognition that 
terrorism is an insidious evil that must be quickly and effectively 
eliminated. United in purpose like never before, the world community 
joins the United States in taking the actions necessary to rid the 
world of these despicable terrorist networks and restore a sense of 
global confidence and security. Likewise, here at home, we must have a 
strong sense of security, especially against terrorism and the 
proliferation of weapons of mass destruction.
    The United States Armed Forces can, and will, rise to meet this 
current challenge. We must also prepare now for future challenges.
    It had become increasingly apparent in recent years that this post-
Cold War world was unexpectedly divisive, with very different enemies 
than in the past. What is now clearer than ever is that we must act 
quickly and decisively to transform our Armed Forces by developing and 
fielding the capabilities that will enable us to counter future 
adversaries, regardless of how they attempt to confront us. This 
requires a bold shift in thinking about our national security. The QDR 
you have provided to Congress this week provides us the bold thinking 
and leadership we need to move ahead.
    We have experienced a great tragedy in our Nation and a blow to our 
sense of security and freedom. We do not know from where the next 
challenge to our freedom, security and vital national interests will 
come, but of one thing we can be sure--it will come, and we must be 
ready.
    Because we cannot predict with certainty where, when, and with whom 
we will have to fight--if, regrettably, deterrence fails--we must have 
balanced land, sea and aerospace forces that are characterized by 
exceptional lethality, precision, flexibility and versatility. We must 
have robust, balanced forces capable of responding to anticipated 
contingencies, forces that can quickly adapt to unanticipated 
contingencies, and forces that provide the Nation a hedge against 
uncertainty--both now, and in the future.
    With the QDR, you have presented a strategy that focuses on how 
future adversaries will seek to attack us, rather than focusing on who 
and where those adversaries might be. That is the dynamic, forward 
thinking we need to prepare us for the broad spectrum of threats our 
Nation will face.
    Gentlemen, I commend you, the Secretary of Defense, and the 
Chairman, Joint Chiefs of Staff for the prudent, thorough process you 
have undertaken to review our defense strategy and key functional 
components of the Department in this Quadrennial Defense Review (QDR). 
At a time when the Department is fully engaged in planning and 
conducting military operations in response to the tragic events of 
September 11, you have met your obligation to provide a comprehensive 
Quadrennial Defense Review to Congress, on time. You are to be 
commended for this accomplishment achieved under extraordinarily 
difficult circumstances.
    The framers of our Constitution anticipated the future needs of our 
Nation well, establishing interdependent branches of Government to 
ensure thorough discussion and debate on matters of high national 
interest, such as our national security strategy and our military 
strategy. I look forward to the dialogue, discussion and debate ahead 
as we craft a defense plan that will realistically address our defense 
needs--both now, and in the future.
    I thank you both for your extraordinary service to our Nation, and 
for your testimony today. I cannot overstate the importance and urgency 
of this process that enters a new phase today--a collective effort to 
size, organize, train and equip the types of forces our Nation requires 
and our leadership role in the world demands.
    Thank you.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond

    Thank you Mr. Chairman:
    Welcome Mr. Secretary and General Carlson. I want to join Chairman 
Levin and Senator Warner in expressing my appreciation to you for your 
appearance here this morning. I know you are dealing with many pressing 
issues as the Nation prepares to strike at the individuals who issued 
the orders to and supported the group of terrorists who carried out the 
heinous attack on our country.
    Mr. Chairman, I consider the requirement for Quadrennial Defense 
Review one of the more significant accomplishments during my tenure as 
Chairman of the Armed Services Committee. Although the report we 
received earlier this week does not fully address all the issues 
required by the enacting legislation, I believe it accomplished its 
primary goal of reviewing our defense strategy and stimulating debate 
on the future of our Armed Forces. I look forward to receiving the 
budget request for fiscal year 2003, which in my judgment will provide 
us a better appreciation of the true implications of the QDR.
    Secretary Wolfowitz, although I believe the report avoided the 
difficult decisions on force structure and modernization programs, it 
is significant in that it changes our defense planning from a ``threat-
based'' model to a ``capabilities-based'' model. This is a significant 
reversal of the Cold War mentality and will allow the Department to 
focus on the variety of the threats that we will face in the coming 
decades. The ``capabilities-based'' approach is long overdue and will 
revolutionize our defense planning.
    Mr. Chairman, I look forward to hearing the details on the QDR, but 
more important, I look forward to its implementation as reflected in 
the next budget request.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Jeff Sessions

    Secretary Wolfowitz, General Carlson thank you for coming before us 
today to explain the Quadrennial Defense Review and to answer our 
questions. I know Secretary Wolfowitz has been working overtime to help 
build a coalition to fight the evil that is terrorism. General Carlson, 
you have a very important duty as Director, Force Structure, Resources 
and Assessment Directorate and must have had a significant input into 
the QDR.
    As you have testified previously, we need to transform our forces 
to meet the challenges of tomorrow while remaining strong today. The 
QDR describes its shift from being a threat responsive document to 
becoming a capabilities based document. This can be a promising new way 
to develop and plan for our force level needs. However, the QDR was 
short on detail on the actual forces which the Department of Defense 
thinks we will need today, next year, 10 years from now and in the 
decades to come. I have been told that more detail will become 
available in the fiscal year 2003 budget submission. I hope that you 
can provide some of that detail today.
    We in the Senate hold our responsibility to protect our Nation as 
our foremost duty. We need the flesh to be added to the bones of the 
QDR so that we may know how best to proceed.
    I expected tough decisions to be made. I anticipate that they will. 
Perhaps this will be in the termination of major weapon system 
procurement programs to fully fund the next generations of 
transformational capabilities. Perhaps that will mean short term 
sacrifice in exchange for long term gain, however, the cowardly attacks 
of September 11 puts this in doubt. Perhaps the budget paradigms of 
September 10 are no longer valid, but if this is the case where does 
the administration expect to find the money. If the money needed for 
transformation is not to be found in off-sets within the Defense 
Department budget, then where do you propose we get it?
    I am worried that the forces for the status quo prevailed over 
those standing for transformation. Frankly, I expected some broken 
china and some protest, perhaps even protest from myself, but it seems 
to me that we have just agreed on the status quo. For instance, I read 
in a Pentagon press release, quoting a Senior Defense Official who is 
referring to the QDR that it ``is a concerted effort to try to 
concentrate on those items which the Secretary, the Defense Secretary, 
the Chairman, the Vice Chairman, the service secretaries, the service 
chiefs, the combatant commanders, and the lead Under Secretaries in the 
Department have all agreed upon.'' While these were certainly the right 
people to provide input into the QDR, I am surprised that all have 
agreed upon its final form. It has been my experience that to achieve 
consensus over such a broad group that the status quo ends up being the 
only acceptable answer to all the parties. Perhaps I am wrong in this 
assessment, and I hope you can show me today where I am wrong.
    Again, I think all of us, at least I can say this for myself, want 
to provide you the resources you need to keep us secure, to keep us 
dominant on the battle fields of today and the battlefields of the 
future, be this on the land, at sea, in the air, or even in space. But 
to do this we need the details of your vision of transformation.
    Another question I have, and one I suspect Secretary Rumsfeld has 
asked, what are your standards for success? I have read of the general 
capabilities you desire for our Armed Forces, but by which yard-stick 
will you know you have achieved your goals? I too want to know these 
standards. It makes it easier to authorize expenditures when I know 
what they are for and how they will be measured.
    I also have questions about some of the finer points of the QDR. 
For instance, you state your commitment to address OPTEMPO and 
PERSTEMPO concerns, while at the same time committing up 5 percent of 
the forces for new experimentation programs. As I see it, adding new 
exercise requirements does not help to reduce the OPTEMPO-PERSTEMPO 
burden on our forces. If this is so, it is not apparent in the QDR 
report.
    I applaud your continued focus on ballistic missile defense and 
space defense, and your commitment to understand and counter the 
asymmetric threats which might confront us. I think you also recognize 
the need for strength in our traditional combative competencies in the 
Army, Navy, Air Force and Marines, in the active, Reserve, and National 
Guard forces.
    Indeed the QDR calls for ``building a portfolio of capabilities 
that is robust across the spectrum of possible force requirements, both 
functional and geographic.'' This sounds great, but I would like you to 
answer the next level of questions. What constitutes a robust force? Is 
it a 600 ship Navy, a 20 division Army? Is it a 300 ship Navy and a 10 
division Army? Or is it something else? We want and need to know these 
answers.
    Secretary Wolfowitz, General Carlson you are confronted with the 
immediate need to fight the battle against terrorists today, a very 
time- and resource-intensive endeavor, while at the same time stepping 
back and looking toward the future to determine what we will need to 
transform our forces in the decades to come. We need you to do both, 
and I suspect you will do both well.
    Again, I am glad that you are here and look forward to hearing your 
statements and listening to your answers to our questions.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.007
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.013
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.050
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.051
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.052
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.053
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.057
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.058
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.059
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.060
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.061
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.062
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.063
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.064
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.065
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.069
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.070
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.071
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.072
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.073
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.074
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7281.075
                                 
    Chairman Levin. Thank you, Senator Warner. Secretary 
Wolfowitz.

STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE; 
ACCOMPANIED BY LT. GEN. BRUCE CARLSON, U.S. AIR FORCE, DIRECTOR 
   FOR FORCE STRUCTURE, RESOURCES AND ASSESSMENT, JOINT STAFF

    Secretary Wolfowitz. Thank you, Mr. Chairman, and I 
apologize for the change in schedule. As you know, Secretary 
Rumsfeld is traveling and I have been asked to come to a 
meeting in his place. But I will be happy to come back here and 
discuss this extremely important subject at greater length.
    Chairman Levin. Let me just assure you, Secretary 
Wolfowitz, that we can understand scheduling changes these 
days, and I know everyone on this committee is supportive of 
what you are about. So do not worry about inconveniencing us. 
We will just pick it up at a later time.
    Secretary Wolfowitz. Let me also say that we appreciate 
enormously the spirit of unanimous bipartisanship with which 
Congress has worked with the President in the last few weeks in 
addressing this incredible crisis that we face. In fact, I 
think we are being challenged now in yet another way. It has 
sometimes been said facetiously that Washington cannot handle 
more than one crisis at a time, and that was with reference to 
crises that were much smaller than the one we face as a country 
now.
    The subject we are addressing today, the Quadrennial 
Defense Review, is really how we address the condition of our 
Armed Forces 10 years from now. Some people might say, well, 
you surely cannot handle that at the same time that you are 
conducting a major campaign against terrorism worldwide. It is 
going to be a challenge, but I think it is a challenge to which 
we have to rise.
    We have to do both. We have to deal with the present, but 
we have to think beyond the present to the future and recognize 
that, just as we were taken by surprise on September 11, the 
surprises of 10 or 15 years from now may be very different from 
what we are going to contend with today.
    On September 11, or really the day after, on September 12, 
we asked ourselves the question: Given what had just happened, 
given the campaign that we were obviously heading into, did it 
make any sense to complete the Quadrennial Defense Review in 
the form that it had essentially reached as of the time of the 
terrorist attacks, or should we just simply put it on a shelf 
and start it all over again?
    We concluded, after some careful thought, that it was very 
important to complete it, not just because we had a statutory 
deadline, but because we think that the Quadrennial Defense 
Review has set some very important directions whose importance 
and accuracy is only confirmed by the events of September 11. 
To us, September 11 means primarily that we need to move in 
those directions more rapidly and with more resources than we 
would have envisioned before these attacks. But we think the 
directions are fundamentally correct.
    As the report says, these directions do represent a 
paradigm shift in the way the Department thinks about its long-
term requirements. A paradigm shift is difficult for even a 
small organization. For an organization of several million 
people, uniformed and civilian, it is a very big task and it is 
not one that can be done overnight. We thought it is important 
to get on with it.
    I am not going to even attempt to read my testimony. I know 
members of this committee read very well. I would urge you to 
read it, if you are interested, because a great deal of thought 
has gone into this statement.
    I would like to call your attention to page six where we 
list six of the important ways in which we think the events of 
September 11 have confirmed the direction set in the 
Quadrennial Defense Review. First and most obvious, but I think 
also most important, the emphasis on establishing homeland 
defense as the top Department priority. Mr. Chairman, I think 
you have noted there is a great deal of work to be done in 
defining what those requirements are, and indeed one of the 
conclusions we reached in the review is that we are just as a 
country, as a Department, at a very early stage of figuring out 
what the role of the Department of Defense might be, for 
example, in responding to a major act of terror with weapons of 
mass destruction. We have to accelerate that work and get 
moving with it even faster. It is not something, obviously, to 
put on the shelf.
    A second emphasis in the new paradigm is the emphasis on 
uncertainty and surprise. Of course, one wants to have better 
intelligence. We are looking at ways to improve our 
intelligence, ways to reduce the possibility of surprise. But I 
think it is a mistake to think that the answer to the 
possibility of surprise is simply to improve your intelligence 
so that you will not encounter surprise. You have to figure 
that surprise has been a fact of military history throughout 
the years, throughout the decades, and you need to have forces 
that have the flexibility to respond to the unexpected, not 
simply to preview and predict the unexpected. Some time you are 
going to miss, and when you miss you need to be flexible and 
have a range of tools to respond.
    Third, is the emphasis on contending with asymmetric 
threats. We just saw one of the most horrible and most potent 
of asymmetric threats directed against us on September 11. 
There are a variety of others. The basic principle that people 
who decide to take on the United States are not going to look 
to challenge our naval superiority or challenge our ability to 
dominate the skies in any place our Air Force flies; they are 
going to look for places where we are weak and they are going 
to try to attack those weaknesses, and we need to figure out 
how to deal with them.
    We talked about developing new concepts of deterrence, not 
to throw away the old ones, I want to emphasize, but to add to 
them techniques for deterring people whose motivations may be 
different. In the case of September 11, of course, we saw the 
problem of deterring people who may be prepared to commit 
suicide and who may be able to conceal their identity in some 
degree.
    We talk very importantly about a capability-based strategy 
rather than a threat-based strategy. As we think about the 
future, as we think about the next decade, it is in my view 
difficult to predict who might threaten us. It is easier to 
think how they might threaten us, what capabilities they might 
direct against us. A capability-based strategy is one that 
focuses on the kinds of threats we might face, the kinds of 
capabilities that might confront us, and also the kinds of 
capabilities that might be able to give us some unique 
advantages.
    Finally, in this Quadrennial Defense Review we have tried 
to expand the concept of risk, which in the past has been seen 
in fairly narrow terms of the risk associated with our current 
war plans and whether we have the forces to execute our current 
war plans. That remains a very important dimension in assessing 
risk, but, as the report notes, we believe there are at least 
three other dimensions that need to get great attention as 
well: the risk that can be imposed on our current forces if we 
are assigning them too many tasks with too few forces and 
stretching either the force as a whole or particular elements 
of the force, leading to reduced readiness and even people 
leaving the military because of excessive wear and tear on 
their families, essentially. We call that the force management 
risk.
    A second dimension is the future capabilities risk, the 
risk that we will underinvest, that we will focus so much on 
our current war plans that we will underinvest in the 
capabilities that are needed 10 and 15 years from now.
    Finally, what we call the institutional risk, the risk that 
we will not be good stewards of the Nation's resources, with 
two harmful effects: the risk that we will be wasting resources 
and, while there may be more resources available now, there is 
even less room for waste; and also the loss of confidence and 
loss of efficiency that comes when you are muscle-bound and do 
not appear to be a good steward.
    There is a great deal else in the document. I tried to 
summarize a lot of it in my testimony. I think one of the most 
important things has been setting the goals for what a 
transformed force needs to be able to do. I want to emphasize, 
a transformed force does not mean a force that is 100 percent 
transformed. These are just very crude estimates, but my 
feeling would be that 10 or 20 percent of the capability is 
transformed and that that transformational capability allows 
the more traditional capabilities, what we call legacy forces, 
to perform their missions more effectively.
    On page 10 of my testimony and in the document itself, we 
lay out what, after very careful deliberation by the Secretary 
of Defense with the senior leadership of the Department, we 
concluded were the six top priorities for transformation. These 
are not selected at random. I think they are very important. 
They cover a range including, very importantly, the problem of 
protecting our critical bases of operations, including U.S. 
territory, as we have discovered, from attacks, including 
possibly attacks with weapons of mass destruction.
    I have believed for a long time now and have been 
persistent throughout the development of the QDR that the 
fourth transformational goal that we list there, that is the 
capability to have high-volume precision strike at various 
ranges, including long ranges, is a major transformational 
capability. I have believed it is one that has to be approached 
not simply as an air component or even simply as a ground 
component, but that integrating air and ground capabilities is 
something that could make us be truly transformational in terms 
of our ability to take out targets at long distance.
    We had an early experience of this during the Gulf War 10 
years ago, when our most effective means for finding Iraqi Scud 
missiles was putting very brave Special Forces people on the 
ground in western Iraq. When they got there, and they found 
targets, we did not have the kind of integration with our air 
capability to make that bravery effective.
    I think we see now as we contemplate operations in parts of 
the world that we never really thought about a month ago that 
more of that capability to strike targets at long range through 
complementary use of air and ground capabilities is a 
capability that we would like to have today and we certainly 
can envision needing in the future.
    Those are the things with which we have tried to drive 
this. Let me just conclude, Mr. Chairman, by saying that you 
talked about decisions deferred. There are a great many 
decisions that have been made, and the decision to undergo a 
paradigm shift is a fundamental decision. It was made not by 
some small group of civilian analysts in a closet figuring out 
what the military ought to do. It was made after literally 
dozens of hours of deliberations by the Secretary of Defense 
with the senior military and civilian leadership of the 
Department.
    I have been a participant I think by now in five major 
defense reviews in one form or another, including the 
development of the base force 10 years ago. I have never seen 
that level of senior guidance directed to the task, and I think 
a number of the decisions that are made in this document, 
including some that I have just discussed, are the product of a 
very strong consensus for change in the Department.
    The philosophy is that many of the details of those changes 
are not ones to be dictated in a centralized manner by people 
who may not be in full touch with the problems, but to bring 
some of those issues forward in a variety of ways, starting 
with the fiscal year 2003 program review. These are obviously 
decisions that we need to take in close coordination and 
consultation with you and with the entire Congress. The 
implementation of a paradigm shift of this magnitude even in 
the best of circumstances would require the closest of 
cooperation between the executive branch and Congress. To do it 
under conditions where we were simultaneously fighting the war 
makes it even more incumbent upon us.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Wolfowitz follows:]

             Prepared Statement by Secretary Paul Wolfowitz

                            I. INTRODUCTION

    It has now been 3 weeks since the strikes against the Pentagon and 
the World Trade Towers. Words cannot describe the horror of what the 
entire world witnessed that day.
    In the wake of these terrible assaults, our initial horror has 
given way to a mixture of intense sadness, quiet anger, and resolute 
determination: We will deal decisively with the terrorist network that 
is responsible for this horror--and those who aid and abet their 
barbaric assaults on all civilized people of all religions everywhere 
in the world.
    But as we prepare for the battles ahead, we must recognize that 
these strikes were not just an act of war--they were a window into our 
future:
    A future where new enemies visit violence on us in startling ways;
    A future in which our cities are among the battlefields and our 
people are among the targets;
    A future in which more and more adversaries will possess the 
capability to bring war to the American homeland; and
    A future where the old methods of deterrence are no longer 
sufficient--and new strategies and capabilities are needed to ensure 
peace and security.
    These attacks were an assault on our people and our way of life; 
but they were also a wake-up call--one that we ignore at our peril.
    We therefore have two missions before us today:
    First, to prepare for a war that is already upon us--to break the 
network of terrorist states and terrorist organizations responsible for 
these acts, and cripple their ability to threaten our people with 
further violence.
    Second, to prepare for the future--to transform our Armed Forces so 
they can defend America and her allies against the many different and 
dangerous threats we will face in the 21st century, to ensure that we 
can deal with the surprise of the next decade and the decade to come.
    Both of these missions are critical and urgent:
    What is at stake in the first is our lives and our way of life;
    What is at stake in the second is the lives and the futures of our 
children and grandchildren.

                    II. THE NEW SECURITY ENVIRONMENT
 
   The American people breathed a sigh of relief when the Cold War 
ended a decade ago.
    They looked around and saw we were a superpower with no obvious 
adversary capable of destroying us.
    They saw democracy spreading across the globe.
    They saw a powerful economic expansion creating unprecedented 
prosperity.
    And there was a temptation to believe that this favorable 
circumstance was a permanent condition.
    On September 11, America learned that it was not.
    The September 11 attacks have awakened us to a fundamental reality: 
the 21st century security environment will be different from the one we 
faced in the 20th century--but just as dangerous.
    To ensure our safety and freedom in the decades ahead, we need to 
understand the change that has taken place--and the lessons it holds 
for our future.
Lesson 1: Surprise is Back
    Military history is full of surprises. Indeed, surprise happens so 
often that it's surprising we're still surprised by it. We ought to 
expect it.
    Yet during the Cold War, our security environment had an appearance 
of predictability. We knew our adversary--an expansionist empire, with 
forces ready to march across Europe, surrogate armies seeking to 
overthrow our allies and install puppet regimes around the world, and a 
massive nuclear arsenal pointed at U.S. cities.
    We understood this threat--and developed an effective strategy to 
deter and eventually to defeat it.
    In the 21st century, the threat is not nearly as clear. Until a few 
weeks ago, many questioned whether there are even any threats anymore, 
even though a vast array of dangerous military capabilities are 
spreading into the hands of multiple potential adversaries--many of 
whom hate America and our allies and friends, wish to harm our people, 
and are not afraid to strike U.S. territory in previously unimaginable 
ways.
    The September 11 strikes caught us by surprise. We must prepare 
ourselves for the virtual certainty that we will be surprised again.
    One scholar of Pearl Harbor said that the reason we were surprised 
then was because of ``a poverty of expectations--routine obsession with 
a few dangers that may be familiar rather than likely.'' It has been a 
recurring problem through military history.
    As we have painfully learned in recent weeks, the likely dangers of 
this new century will be quite different from the seemingly familiar 
dangers of the past century. Threats that were previously considered 
``improbable'' may in fact become the likely threats of the future.
    Until 3 weeks ago, an attack like the one we suffered September 11 
seemed unimaginable to most Americans. If we ignore other emerging and 
seemingly unimaginable threats, the consequences for our people and our 
way of life might be even more horrible.
    We must constantly strive to perfect our intelligence, but we must 
also realize that there is no such thing as perfect intelligence--there 
will always be gaps in our intelligence. Adapting to surprise--adapting 
quickly and decisively--must therefore be a condition of planning.
    We must not take the lesson from September 11 that terrorism is the 
new, predictable threat of the 21st century--to do so could be a 
terrible mistake and leave us exposed to different challenges in the 
next decade.
    Therefore we face the enormously demanding task of fighting an 
extraordinarily difficult kind of war and at the same time preparing 
for the future.
    The next challenge we face may not be a terrorist attack at all, 
but something entirely different--it might even be a return to the past 
with nation states invading their neighbors.
    Future adversaries may employ even bolder forms of terrorism. These 
could include cyber attacks, advanced conventional weapons, ballistic 
missiles, cruise missiles, and nuclear, chemical and biological weapons 
of mass destruction to strike at our people and our way of life.
    The element of surprise--and the reality of little or no warning--
must be understood as a critical feature of the security environment 
America faces--and one we must factor into our defense planning for the 
decades ahead.
Lesson 2: The Era of Invulnerability is Over
    The attacks on the Pentagon and World Trade Towers were the first 
assaults on U.S. territory since World War II--and the first attack on 
our capital by a foreign enemy since the War of 1812.
    It is no accident that no adversary has struck our capital for 189 
years. For most of our history, the United States has been blessed with 
the security advantage of excellent geography--a continental nation 
with friendly neighbors and two vast ocean buffers.
    To get to U.S. territory, an adversary first had to get past our 
Armed Forces, who protected our shores by land, sea and air.
    The arrival of the atomic age changed that. During the Cold War we 
faced, for the first time, an adversary capable of visiting destruction 
on our cities and our people in a matter of minutes.
    The end of the Cold War did not restore our previous 
invulnerability--to the contrary, as the recent attacks on Washington 
and New York demonstrate, we are witnessing a dramatic expansion of the 
deadly zone of conflict to our population centers. War used to be 
something that took place on foreign soil. No longer.
    This threat will only grow worse in the coming years. Here is why:
    The information revolution that is fueling the world economy is 
also putting dangerous technologies into the hands of multiple 
adversaries, many of whom despise our nation and wish to harm our 
people.
    Along with the globalization that is creating interdependence among 
the world's free economies, there is a parallel globalization of 
terror, in which rogue states and terrorist organizations share 
information, intelligence, technology, weapons materials and know-how.
    This technology will allow new adversaries to get past our Armed 
Forces and strike our territory without having to confront and defeat 
them.
    As technology proliferates, with each passing year our enemies will 
possess an increasing capability to bring war to the American homeland.
    What this means is that, in the 21st century, we can no longer 
count on conflicts remaining contained within their region of origin 
far from our shores. It means that future wars may well include a home 
front.
Lesson 3: Our Adversary Has Changed
    In addition to the spread of more powerful weapons, we will also 
face new adversaries in the decades ahead--with different motivations 
and different capabilities.
    Some may simply seek regional hegemony, and see the U.S. as a 
roadblock to their ambitions. Others may be motivated by hatred of 
America, and the traditions of freedom and religious toleration we 
represent.
    Our new adversaries may be, in some cases, more dangerous than 
those we faced in the past.
    They may not possess the tens of thousands of nuclear warheads 
capable of ending life on earth that the Soviet Union did--but they may 
be more likely to use the increasingly powerful weapons in their 
possession.
    Their decision-making is not subject to the same constraints that 
earlier adversaries faced. Usama bin Laden, Saddam Hussein and Kim Jong 
Il answer to no one. They can use the capabilities at their disposal 
without consultation or constraint--and have demonstrated a willingness 
to do so.
    They may be less likely to be discouraged by traditional 
deterrence. The threat of massive U.S. retaliation certainly did not 
stop the September 11 assault on the Pentagon or the World Trade 
Towers. We cannot be certain it will stop other adversaries.
    What this means is we need a new approach to deterrence for the 
21st century. What worked against the Soviet threat, may not work 
against the threats we face in the decades ahead.
    We are now facing enemies that are increasingly capable--and 
willing--to bring war to the American homeland. We must find new ways 
to deter them.
Lesson 4: Their Objectives Are the Same as Tyrants of the Past
    The terrorist movements and totalitarian regimes of the world have 
a variety of motives and goals. But the same thing unites our enemies 
today, as it did in the past: a desire to see America driven into 
retreat and isolation.
    Usama bin Laden, Saddam Hussein, Kim Jong Il and other such tyrants 
all want to see America out of critical regions of the world, 
constrained from coming to the aid of friends and allies, and unable to 
project power in the defense of our interests and ideals.
    By holding our people hostage to terror and fear, their intention 
is for America to be intimidated into withdrawal and inaction--leaving 
them free to impose their will on their peoples and neighbors 
unmolested by America's military might.
    This is why terrorist states harbor terrorist movements like al-
Qaeda--these groups serve their ends.
    That is why our challenge today is greater than winning the war 
against terrorism. Today's terrorist threat is a precursor of even 
greater threats to come.
    It is no coincidence that the states harboring, financing and 
otherwise assisting terrorists, are also in many cases the same states 
that are aggressively working to acquire nuclear, chemical and 
biological weapons of mass destruction (WMD), and the means to deliver 
them.
    They have learned from the Gulf War that challenging American 
forces head-on doesn't work--so they have turned increasingly to 
developing asymmetric capabilities.
    Along with WMD and other capabilities to threaten our homeland, 
they are developing new advanced conventional capabilities--``access 
denial'' weapons such as anti-ship cruise missiles, quiet diesel subs, 
advanced sea-mines, air defense systems and radars.
    All of these capabilities serve their common objective of keeping 
America out of their regions and unable to project force in the defense 
of freedom.
    This threat is as great as any we faced during the Cold War. Peace 
and freedom in the 21st century depend on our ability to counter it at 
all levels.
    We must defeat the terrorist network responsible for the September 
11 assaults.
    But just as importantly, we need to prepare now for the emerging 
threats we will face in the next decade and beyond.
    Each of these tasks by themselves is an enormous challenge, but we 
have the challenge of doing both at the same time.

                    III. QUADRENNIAL DEFENSE REVIEW

    For the past several months, the senior civilian and military 
leaders of the Defense Department have been working to examine the 
emerging threats we will face in the coming decades--and develop a new 
defense strategy to meet them.
    The result of those efforts is the Quadrennial Defense Review, 
which was sent to Congress on September 30th.
    The QDR was largely completed before September 11. Yet, in 
important ways, these attacks confirm the strategic direction and 
planning principles that resulted from this review, particularly its 
emphasis:

        On establishing homeland defense as the top Department 
        priority;
        On preparing for uncertainty and surprise;
        On contending with asymmetric threats;
        On developing new concepts of deterrence;
        On replacing a threat-based strategy with a capabilities-based 
        strategy; and,
        Balancing deliberately the four different dimensions of risk.

    The attack on the United States on September 11 will require us to 
move forward more rapidly in these directions--even while we are 
engaged in the campaign against terrorism.
    On September 11, new dangers arrived sooner than expected. With the 
pace of technological change today, we must expect that other new 
dangers could emerge just as quickly--and with just as little notice--
in the future as well.
    To meet the challenges over the horizon, we must transform our 
Armed Forces more rapidly, more creatively, and even more radically 
than we had previously planned.
    As we do so, we must recognize another fact: it is in the nature of 
surprise that the surprise of the next decade is likely to be something 
entirely different from the surprise we just experienced.
    It is a fact of life that countries frequently prepare to fight the 
last war. We spent much of the 1990s planning to re-fight the Gulf War. 
As we think ahead to the year 2010 and beyond, we should not assume 
that the war we will fight then will resemble the one we are preparing 
to fight today.
    So as we prosecute this war against terrorism today, we must at the 
same time begin developing the force that will fight and win the wars 
of the future.
    That is goal set for us by the Quadrennial Defense Review.
Capabilities-based Approach
    The strategy outlined in the QDR is built around four key goals 
that will guide the development of U.S. forces and capabilities, their 
deployment and use:
    Assuring allies and friends of the United States' steadiness of 
purpose and its capability to fulfill its security commitments;
    Dissuading adversaries from undertaking programs or operations that 
could threaten U.S. interests or those of our allies and friends;
    Deterring aggression and coercion by deploying forward the capacity 
to swiftly defeat attacks and impose severe penalties for aggression on 
an adversary's military capability and supporting infrastructure; and
    Decisively defeating any adversary if deterrence fails.
    We cannot and will not know precisely where and when America's 
interests will be threatened, or when, or even how America, its friends 
and allies will come under attack.
    To meet this reality and the key strategic goals and, we need to 
shift the basis of defense planning from a ``threat-based'' model that 
has dominated thinking in the past to a ``capabilities-based'' model 
for the future.
    This capabilities-based model focuses more on how an adversary 
might fight rather than specifically who the adversary might be or 
where a war might occur. It recognizes that it is not enough to plan 
for large conventional wars in distant theaters. Instead, the United 
States must identify the capabilities required to deter and defeat 
adversaries who will rely on surprise, deception, and asymmetric 
warfare to achieve their objectives.
    Such an approach would examine our vulnerabilities, and develop new 
capabilities and new strategies to defend ourselves.
    As we have painfully learned, our open borders and open societies 
make it easy and inviting for terrorists to strike at our people where 
they live and work.
    We know that our dependence on space satellites and computer 
information networks make those networks attractive targets for new 
forms of attack.
    We know that the ease with which potential adversaries can acquire 
advanced conventional weapons will present us with new challenges in 
conventional war and force projection.
    We know that our lack of defenses against ballistic missiles 
creates incentives for missile proliferation which, combined with the 
development of nuclear, chemical and biological weapons of mass 
destruction, will give future adversaries the ability to hold our 
populations hostage to terror and blackmail.
    Future adversaries will likely develop new means with which to 
exploit these vulnerabilities and threaten the United States.
    We must develop defenses against known and emerging threats--and 
develop new approaches for detecting new threats.
    Some we can identify today with confidence--ballistic and cruise 
missiles; nuclear, chemical and biological weapons of mass destruction; 
weapons of mass disruption such as information warfare and attacks on 
critical information systems, capabilities to attack and cripple our 
space assets. Still others may be a surprise.
    Adopting a capabilities-based approach to planning requires that 
the Nation maintain its military advantages in key areas while it 
develops new areas of military advantage and denies asymmetric 
advantages to adversaries. It entails adapting existing military 
capabilities to new circumstances, while experimenting with the 
development of new military capabilities. In short, it requires the 
transformation of U.S. forces, capabilities, and institutions to extend 
America's asymmetric advantages well into the future.
21st Century Deterrence
    To contend with surprise and the challenge of asymmetric threats, 
we also need a new approach to deterrence.
    The threats we face in the 21st century will be multifaceted--our 
deterrence strategy must be as well. Just as we intend to build 
``layered defenses'' to deal with missile threats at different stages, 
we also need a strategy of ``layered deterrence'' in which we develop a 
mix of capabilities--both offensive and defensive--which can dissuade 
and deter a variety of emerging threats at different stages.
    We must dissuade potential adversaries from developing dangerous 
capabilities in the first place--by developing and deploying U.S. 
capabilities that reduce their incentives to compete.
    For example, America's overwhelming naval power discourages 
potential adversaries from investing in building competing navies to 
threaten freedom of the seas--because, in the end, they would spend a 
fortune and not accomplish their strategic objectives.
    In the same way, we must develop a broad range of new capabilities 
that, by their very existence, dissuade and discourage potential 
adversaries from investing in other hostile capabilities.
    For example, effective space defenses could discourage adversaries 
from developing new capabilities to threaten our critical assets in 
space. Effective missile defense could similarly discourage potential 
adversaries from investing in ballistic missiles that threaten U.S. and 
allied population centers.
    At the same time, we also need to strengthen the capability to 
deter future adversaries from aggression and coercion, by increasing 
the capability of our forward-deployed forces and global striking power 
to respond rapidly to threats.
    We must maintain the capacity to swiftly defeat attacks and impose 
severe penalties for aggression in critical regions. To do this, we 
will need forces and capabilities that give the President an even wider 
range of military options.
    Implementing such a multi-layered deterrence strategy requires that 
we improve our intelligence capabilities, our capability for long-
distance force projection, and our capability to integrate our joint 
forces, and that we maintain a credible offensive nuclear deterrent.
    It also requires a transformation of our forces.
Transformation
    Transformation is about more than our technology; it is about 
innovative concepts of operating and configuring our forces, 
adjustments in how we train and base our people and materiel, and how 
we conduct business day to day.
    The goal of transformation is to maintain a substantial advantage 
over any potential adversaries in key areas such as information 
warfare, power projection, space and intelligence.
    A transformed force must be able to:
    Protect critical bases of operations (U.S. homeland, forces abroad, 
allies, and friends) and defeat NBC weapons and means of delivery;
    Project and sustain U.S. forces in distant ``access-denial'' 
environments;
    Assure information systems in the face of attack and conduct 
effective information operations;
    Provide persistent surveillance, tracking and rapid engagement with 
high-volume precision strike, through a combination of complimentary 
air and ground capabilities, against critical mobile and fixed targets 
at various ranges, and in all weather and terrain;
    Enhance the capability and survivability of space systems and 
supporting infrastructure; and
    Leverage information technology and innovative concepts to develop 
effective joint operational capabilities.
    If we can do this, we can reduce our own chances of being surprised 
and increase our ability to create our own surprises, if we choose. A 
stealthy F-117 over Baghdad is one example of the nexus of 
intelligence, technology, and planning--they didn't know we were there 
until the bombs started to explode. We must enhance our ability to 
create such surprises in the future, although how we do so may require 
fundamental shifts in the systems we use.
    As we do so, our ability to conduct effective joint operations 
becomes even more critical than before. Successful future operations 
will require a flexible, reliable, and effective joint command and 
control architecture that provides the flexibility to maneuver, sustain 
and protect American forces across the battlefield.
    The Department will examine options for creating standing joint 
task forces that will develop new concepts to exploit U.S. asymmetric 
military advantages and will aim at achieving more rapid and more 
effective military responses.
    We will identify the capabilities U.S. military forces will need to 
deter or defeat adversaries likely to rely on surprise, deception, and 
asymmetric warfare. We will emphasize developing new concepts of 
operations to address challenges posed by mobile targets and weapons of 
mass destruction; integrating long-range strike aircraft with troops on 
the ground; and putting key intelligence into the hands of decision 
makers and warfighters far more quickly than in past engagements.
New Force Sizing Construct
    If we are to contribute to peace and security, we must also 
determine how U.S. forces should best be sized and arranged to meet the 
challenges of the new century.
    Since the end of the Cold War, the Department has relied on a 
formula known as the ``two Major Theater War'' approach to size our 
forces. As the civilian and military leaders of the Department reviewed 
this approach, we concluded that it had several shortcomings:
    It did not specifically address the full range of threats to the 
U.S. homeland.
    It did not account for demands placed on our forces by small-scale 
contingencies.
    It placed excessive emphasis on preparations for decisively 
defeating adversaries after war broke out, rather than bolstering 
capabilities and forces to deter adversaries from challenging the U.S. 
in the first instance, and
    It over-optimized U.S. forces for two specific regional conflicts, 
at the expense of preparations for other contingencies and future 
challenges.
    In the QDR, we are proposing a new, more comprehensive approach. 
U.S. forces will maintain the capability to:
    Defend the American homeland.
    Deter conflicts in four critical areas of the world, by 
demonstrating the ability to defeat enemy attacks, and do so far more 
swiftly than in the past or even today.
    Defeat aggressors in overlapping timeframes in any two of those 
four areas.
    At the direction of the President, decisively defeat one of these 
two adversaries--to include invading and occupying enemy territory.
    Decisively impose our will on any one aggressor of our choosing.
    Conduct a limited number of contingencies short of war in peacetime 
without excessive stress on our men and women in uniform.
    The approach we are proposing will give the U.S. sufficient forces 
to prevail in two nearly simultaneous conflicts. Where it differs from 
the previous sizing construct is that in one conflict, we will have 
sufficient force to occupy the adversary's capital and replace the 
regime, while in the other, our forces will be sufficient to prevail 
over enemy forces and repel an act of aggression--much as we did in the 
Persian Gulf War--but without marching on, and occupying the capital.
    Since neither aggressor would know in which conflict the President 
might choose to occupy a capital--and where we might choose to simply 
repel and defeat an act of aggression--the prospect of a total defeat 
would remain as a strong deterrent.
    But because the U.S. will not require a second occupation force, 
this approach will free up resources for other critical priorities
    This shift is not simply a matter of cost savings. Even with the 
current consensus for increased defense spending, we still should not 
waste the taxpayers' dollars to prepare for wars we will not fight in 
the 21st century. The goal is to permit us to better balance near-term 
risks with the long-term challenges of preparing for the new kinds of 
war we may fight, and new adversaries we may face, in 2010 and beyond.
The Four Dimensions of Risk
    The Quadrennial Defense Review has also identified a new approach 
to assessing and managing risk.
    In recent years, the Department has defined risk narrowly in terms 
of war plans, without sufficient emphasis on other dimensions of risk-
to people, modernization, and transformation.
    After the end of the Cold War, the size of the force was reduced by 
some 40 percent. But at the same time, our men and women in uniform 
were asked to take on more and more new missions--that did not fall 
within the two major theater war construct.
    This put enormous stress on our Armed Forces. They saluted smartly, 
and did their best. But to accomplish the new missions they were 
assigned, while at the same time being prepared to meet the 
requirements of the two-war approach, they put off investments in 
critical areas. This exacerbated the effect of the mismatch between 
strategy and resources.
    The effect was to crowd out critical investments in modernization, 
maintenance, infrastructure, and procurement of new ships, aircraft and 
armored vehicles; in the transformational R&D necessary to field new 
21st century capabilities; in personnel--funds for pay, housing, and 
healthcare--while our forces were deployed all across the globe.
    It is important, as we try to close the gap between strategy and 
resources that we invest the new resources in a balanced way to address 
the different dimensions of risk.
    We intend to change this. Henceforth, in addition to the 
operational risks associated with our ability to execute war plans, the 
Department must also take into account the force management, 
institutional and future challenges risks in determining how to 
allocate resources.
Resources
    Finally, the loss of life and damage to our economy from the attack 
of September 11, 2001 should give us a new perspective on the question 
of what this country can afford for its defense.
    Last week in Brussels, I told our allies that this assault is a 
wakeup call for us all about the importance of investing adequately and 
providing for security.
    To think we can't afford what we need to deter the adversaries of 
tomorrow and underpin our prosperity, and by extension, peace and 
stability around the globe, is simply wrong. These costs do not begin 
to compare with the cost in dollars and human lives if we fail to do 
so.
    Secretary Rumsfeld has often talked about the situation in 1950, 
when General Omar Bradley urged President Truman to spend at least $18 
billion on defense. The Joint Chiefs gave an even higher estimate at 
$23 billion, and the services' estimate was higher still at $30 
billion. But the President and Congress said we couldn't afford that 
much--$15 billion was as much as we could afford.
    Six months later, we were suddenly in a war in Korea, and we could 
afford $48 billion--just fine.
    Today, sadly, we're experiencing what Yogi Berra called ``deja vu 
all over again.''
    The U.S. Armed Forces underpin our Nation's prosperity and way of 
life. We don't get our ``peace dividend'' by short-changing them. We 
get it from the peace, security and prosperity they make possible.
    This Nation can afford to spend what is needed to deter the 
adversaries of tomorrow and to underpin our prosperity.

                             IV. CONCLUSION

    If we are to preserve our ability to defend freedom in the 21st 
century, we must prepare now for a world in which future adversaries 
will strike at our people and our territory in previously unimaginable 
ways.
    We must take the assaults in New York and Washington as a warning 
to the even more unfathomable dangers that lay ahead.
    Our adversaries have now shown their willingness to slaughter 
thousands of innocent civilians in a devastating strike. If they had 
the capability to kill millions of innocent civilians, do any of us 
believe they would hesitate to do so?
    What a tragedy it would be if we let our preparations for the 
future be numbered among the casualties of September 11.

    Chairman Levin. Thank you.
    General Carlson.
    General Carlson. Sir, with your permission I will just 
submit my statement for the record.
    [The prepared statement of Lieutenant General Carlson 
follows:]

           Prepared Statement by Lt. Gen. Bruce Carlson, USAF

    Three weeks ago the terrorist strikes against the Pentagon and the 
World Trade Center shocked the world. Today, we who serve in uniform 
are focused on taking down the network of terrorist organizations 
responsible for these acts and all those that support them. As General 
Shelton said in his farewell remarks at Fort Myer on Monday, our brave 
soldiers, sailors, airmen, marines, and coastguardsmen are ready for 
this challenge.
    But even as we fight this war on terrorism, we must also continue 
our efforts to transform our military. To ensure we remain ready, in 
the years ahead, to meet America's future security challenges.
    That's why this year's Quadrennial Defense Review (QDR) is so 
timely and so important. The report, released by Secretary Rumsfeld on 
30 September, will be an important guidepost as we continue our 
transformation efforts in the years ahead.
    During the past months, senior military officers, to include the 
Joint Chiefs and the commanders in chief (CINCs), were all heavily 
engaged in the QDR process.
    Their involvement ensured the best military advice was made 
available to the Secretary and was taken into consideration by his 
team. Additionally, this high level of engagement ensured that this QDR 
was well-grounded on strategic requirements.
    I would like to emphasize two key points:
    First, the QDR faced two critical tasks: ensuring the near-term 
ability of the force to protect and advance U.S. interests worldwide; 
and transforming our forces to meet the security challenges of the 
future.
    The difficulty, of course, is addressing these two challenges 
simultaneously. In my view, the program recommendations and defense 
strategy outlined in the QDR, if matched with the necessary resources, 
will move us toward accomplishing both; while balancing the associated 
near-, mid-, and long-term risks.
    The second point I want to make is that we have much more work to 
do to. Including detailed studies and analysis. The QDR is not the 
endgame. It is an important step forward along the path of 
transformation.
    We believe that the QDR moves us in the right direction--toward 
achieving a sustainable balance between strategy and force structure--
and a balance between the demands of today with those of the future.
    Achieving this balance, and maintaining it, will take a lot of hard 
work both by those in uniform and those in the Department of Defense. 
It will also require the continued support of this committee. But it is 
essential that we get this right if our Armed Forces are to remain the 
finest fighting force in the world.

    Chairman Levin. Thank you.
    We will have 4-minute rounds in light of the change in 
circumstances here. Mr. Secretary, the QDR indicates that 
substantial additional work and planning will have to be 
devoted to the subject of homeland security. The report 
mentions that the Department of Defense will review the 
establishment of a new unified combatant commander to help 
address complex inter-agency issues and provide a single 
military commander to focus military support.
    However, on Tuesday Secretary Rumsfeld announced that he 
has designated the Secretary of the Army as the Department of 
Defense's executive agent for all homeland security matters. 
How is the designation of the Secretary of the Army as the 
DOD's executive agent for all homeland security matters 
consistent with the Goldwater-Nichols legislation that removed 
service secretaries from operational matters and assigned them 
the mission of organizing, training, and equipping the 
services' forces?
    Secretary Wolfowitz. Mr. Chairman, that is an interim 
measure and an emergency measure, taken because we needed 
somebody and somebody with the skills and enormous competence 
of Secretary White to handle our suddenly enormous emergency 
requirements. He in fact was appropriately insistent on 
accepting that responsibility that it be understood and made 
clear that it was interim. He has an 18-hour day job already, 
Secretary of the Army, and we have just added another 18 hours 
and there are only so many months that we can keep stretching 
him that way.
    That is a temporary fix and we will be working with you and 
coming back with something that will sustain us longer term.
    Chairman Levin. What are the practical consequences of the 
QDR recommendations for military end-strength or for force 
levels?
    Secretary Wolfowitz. The way we approach the question of 
force levels and end-strengths--let me first describe the way 
we were approaching it prior to September 11.
    Chairman Levin. Because we only have 4 minutes each, do we 
know yet what the practical impact will be regarding end-
strengths and force levels in terms of numbers or structure?
    Secretary Wolfowitz. No. We took the current force 
structure and the current end-strengths as a starting point. We 
identified for the services targets for efficiencies, and prior 
to September 11 we were prepared to make those very specific 
quantitative targets and I think we will go back to some 
version of that, with the notion that the first place to look 
for efficiencies are things that you do not want to be doing. 
One of the last places is end-strength and probably the very 
last place is force structure.
    So we are trying to get the resources that we need to do 
transformation at the same time that we stay as close as 
possible to an end strength that will make the force management 
risk acceptable and a force structure that will make the 
operational war-fighting risk acceptable.
    The first estimate by the Joint Chiefs in an exercise 
called Positive Match came up with a preliminary assessment, 
which I think is reported in the QDR, that we can execute the 
new strategy with the current force structure at moderate 
levels of risk in most scenarios, although there are some where 
the risk would be high.
    That is work that we have to take further. There are some 
people who believe that possibly one could keep those moderate 
levels of risk with a different force structure, but then you 
get into the issue of whether you can keep acceptable OPTEMPO 
and PERSTEMPO with a lower end-strength.
    Chairman Levin. So that is not resolved yet?
    Secretary Wolfowitz. It is preliminarily resolved as, what 
sounds like a status quo answer, which is current force 
structure, current end-strength.
    Chairman Levin. Then my last question: The Army has 
established a goal of fielding the first components of the 
Objective Force by fiscal year 2010, but as part of that plan 
to field interim brigade combat teams at the rate of one per 
year starting in fiscal year 2003. Does the QDR change the 
fielding rate for interim brigade combat teams or the date of 
first fielding of the Objective Force, do you know?
    Secretary Wolfowitz. No, it does not.
    Chairman Levin. Thank you. My time is up.
    Senator Warner.
    Senator Warner. Thank you very much.
    Mr. Secretary, I certainly commend Secretary Rumsfeld, 
yourself, and all in the Pentagon during this period of 
extraordinary leadership that each of you, both civilian and 
uniformed, exhibited.
    Turning to the events of the 11th, we saw from within the 
cities and towns and villages of this great Nation came the 
enemy. My question goes to the doctrine of posse comitatus, 
which in 1878 was laid down on the premise that our forces in 
uniform should never be used in any way that would be 
interpreted that they were policemen. It is well and good and 
it has served this Nation these 100-plus years, but it seems to 
me it is time to re-examine that doctrine.
    I will soon be forwarding to you a series of questions on 
this matter. These enemies that struck us of recent came from 
within the civilian mix. Albeit legally or illegally or 
whatever their citizenship status may have been, they came from 
the streets of the USA. It seems to me that when that type of 
catastrophe happens, we have to bring together every asset of 
the United States of America irrespective of where it comes, 
military or civilian.
    I was momentarily late coming to this hearing because we 
are honoring firefighters and public service officers who gave 
their lives and also those who were wounded in the tragedy that 
we experienced on the 11th.
    So give it some thought. Do you agree with me that it is 
time to take a look at this?
    Secretary Wolfowitz. I agree very strongly. We in the 
Department of Defense assume that if we are hit with a 
catastrophe of the many kinds that one can now unfortunately 
imagine more vividly that, whatever people think beforehand, 
they are going to come and say: ``What else can you do?'' We in 
certain areas can do more than anyone else in the country 
because of the special capabilities we have, because of the 
unique organizational capabilities of the Department, and it 
would be better to think through in advance what kind of 
civilian control and what relationship with civilian 
authorities rather than improvising.
    Senator Warner. Particularly if we befall the tragedy of 
chemical or biological attack, where there would be a massive 
number of casualties, I think we'd have to bring in the 
military instantly to help with medical aid, transportation 
assistance, and in any number of ways.
    Quickly moving to a second concept, deterrence. Throughout 
the history of mankind military forces were looked upon 
primarily as first to deter an enemy from striking. How do we 
now invoke that doctrine, given that there are people who are 
willing to surrender their lives to bring harm to the people of 
this great Nation?
    Secretary Wolfowitz. I think it is very difficult, Senator. 
I would not pretend to have the answer, but I think deterrence 
still works on the probably much greater number of people who 
want to protect their lives. One of the things I am struck by 
is, by the way, the experience seems to be that some of these 
brave souls when they are taken into custody, suddenly they are 
willing to talk and say a great deal. I do not know whether it 
is because these are not the ones who are ready to commit 
suicide or whether people under some circumstances will and 
under some circumstances will not. But we need to figure out 
how to get to people like that.
    Chairman Levin. You are using the word ``brave souls,'' I 
take it, ironically?
    Secretary Wolfowitz. Absolutely, ironically. Sorry. I thank 
you for clarifying that.
    Senator Warner. Force planning is important. For some time 
the United States has been operating with a requirement to 
fight and win two nearly simultaneous conflicts. How has this 
document changed that concept?
    Secretary Wolfowitz. It has not changed the idea of being 
able to handle two nearly simultaneous conflicts or, I think, 
the terms of the document, in overlapping time frames. We 
continue to believe that that is an important requirement 
because it helps you if there is trouble in one place, to keep 
it from erupting in other places.
    What we have changed is the notion of having to have the 
capability in two different places simultaneously to achieve a 
kind of overwhelming victory. I guess to be tangible about it, 
we have a requirement to be able to deter conflict in four 
critical regions of the world. One of the goals of our 
transformational capabilities, by the way, is to try to improve 
the deterrence capability of our forward-deployed forces.
    We have a requirement to defeat aggression in any two 
regions in near simultaneous time frame. By defeat we mean the 
kind of defeat that we inflicted on Iraq in 1991, which is a 
lot more than just stopping them. It was pretty much tearing 
them apart. But it was not marching on to occupy their capital, 
which is what is euphemistically in our language called a 
decisive defeat.
    Speaking about how we size our forces, we think it is 
important to have forces large enough that, should the 
President decide, he can impose that kind of decisive defeat.
    Senator Warner. The short answer is the fundamentals of 
that document have not been abandoned?
    Secretary Wolfowitz. The fundamental of being able to 
handle two things at once has not changed.
    Senator Warner. Fine.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Carnahan.
    Senator Carnahan. The QDR states that the Defense 
Department will now be placing new emphasis upon 
counterterrorism across Federal, State, and local first 
responders, drawing on the capabilities of the Reserve and 
National Guard. The National Defense Authorization bill 
requires that DOD better define the role of the National 
Guard's weapons of mass destruction civil support teams. These 
teams are being trained to decontaminate affected areas and to 
help with medical aid.
    I was wondering if you could describe what you feel is the 
importance of these programs and detail your commitment to 
honing our abilities to respond to such attacks.
    Secretary Wolfowitz. I think these teams are extremely 
important and they are critical to our ability to identify 
early if there is the kind of attack that would require 
bringing in the special capabilities. If you identify an attack 
as a biological attack or a chemical attack, the faster you 
identify it the faster you can respond, and those teams are 
really critical to our response time.
    I know this has been an initiative led by Congress. We 
applaud that initiative and we are implementing it as fast as 
we can.
    Senator Carnahan. Thank you.
    One question for General Carlson. The QDR places a great 
emphasis on expanding America's ability to project power deep 
into Central and East Asia. This committee has often stated 
support for increasing our long-range bomber capability to 
accomplish this goal. Now this document has indicated that the 
Air Force is developing plans to increase basing in the Pacific 
and the Indian Oceans.
    Would such a plan include developing permanent shelters for 
B-2 bombers, say on Guam, for instance?
    General Carlson. Ma'am, I think it would be appropriate to 
wait until the services have developed those plans and then we 
will have to determine whether it would require shelters or 
whether they think that deploying weapons or other mitigating 
equipment would be useful.
    Senator Carnahan. Would the Defense Department begin to 
consider the expansion of our B-2 fleet?
    General Carlson. I am sure it will be one of the options 
that the Air Force considers.
    Senator Carnahan. Thank you very much.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Hutchinson.

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. Thank you, Mr. Chairman, and thank you 
for holding the hearing today.
    Mr. Secretary, I thank you for your extraordinary 
leadership and the great job that you and Secretary Rumsfeld 
are doing in this time of crisis. Be assured, as my colleagues 
have repeatedly assured you, of our support and the support of 
Congress in this time.
    You alluded to in your opening comments the operational 
goals of the transformation effort, the number one operational 
goal being to protect critical bases of operations, U.S. 
homeland forces, forces abroad, allies and friends, and 
defeating chemical, biological, radiological, nuclear and 
enhanced high explosive (CBRNE) weapons and their means of 
delivery. I know much of this had to have been written prior to 
the September 11 attack, but it is surely very relevant, and I 
think it is appropriate that that is the number one operational 
goal.
    Yet, I believe we have had a very misguided approach in 
recent years as to our vaccine acquisition strategy. We have 
invested tens of millions of dollars in an acquisition strategy 
that has failed and the fact is that we do not today have 
adequate supplies of anthrax vaccine to vaccinate our troops 
even as we go through a troop buildup and send them into the 
Middle East, I believe, vulnerable.
    The recommendations of the report that was mandated by 
section 218 of last year's National Defense Authorization Act 
regarding vaccine production prepared by the Department and 
released recently recommends the creation of a government-
owned, contractor-operated facility. I would like you to 
comment on that recommendation and in general your thoughts on 
our vaccine acquisition strategy.
    Secretary Wolfowitz. As you know, Senator, one of the 
problems with our vaccine acquisition has been problems in 
production at one particular facility. That I think has been 
the principal thing that set us back, at least in the time that 
I have been able to look at it.
    I think the events of September 11 really do put all of 
that subject in my view in a different and more urgent light, 
and I think we have got to press ahead with every option that 
can give us capability against biological weapons as quickly as 
possible. There are some issues of risk that have to be 
weighed, but I think one weighs those risks in a very different 
light after September 11 than one would have before.
    Senator Hutchinson. Mr. Secretary, our strategy has been 
based upon the idea, and I think contrary to previous 
recommendations back in the early nineties, it has been based 
upon a total reliance upon the commercial sector to provide 
that, and it has obviously failed. While we all hope for FDA 
approval of that vaccine production and that we can get some 
immediate relief, it is my conviction that in the long term the 
vaccine needs for the military are unique and are not going to 
be necessarily commercially appealing and that we are going to 
continue to have those kinds of problems if we rely solely upon 
the commercial sector in the future.
    Has the Department made a decision regarding whether we 
continue to rely on what I think has been a very failed 
approach to whether we are going to move and follow the 
recommendations of the section 218 report? If not, at what 
point do we expect that decision to be made?
    Secretary Wolfowitz. We have not really gotten to that yet, 
Senator. We need to with some urgency. I think even the 
commercial vaccine sector has to be looked at in a different 
way. I think a lot of companies have gone out of the vaccine 
business because of the way in which we have assigned risks, 
the way in which we have tended to put liability on companies, 
and I think not only the military, but civilians, have got to 
look at whether that is really the result we want, given some 
of the threats we face out there.
    Senator Hutchinson. Well, I certainly agree it is something 
that must be dealt with with great urgency. I appreciate that 
you have been very responsive to me and I look forward to 
working with you and the administration on what is a very 
serious problem, not only for force protection, but for our 
civilian population.
    Thank you.
    Secretary Wolfowitz. Thank you.
    Chairman Levin. Thank you.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I was going to get into several areas, but there will not 
be time because of the scheduling. I have taken the time to go 
to Fort Lewis and view the interim brigade combat team (IBCT). 
Mr. Chairman and Senator Warner, I suggest that you encourage 
as many members of this committee as are willing to make that 
trip to do that. It was very rewarding to me.
    Now, Secretary Wolfowitz, I was very gratified you 
mentioned a minute ago, you said that we all read very well, 
but sometimes our interpretation of what we read is not always 
the same. I am going to read a quote out of your report: ``Any 
function that can be provided by the private sector is not a 
core government function. The test of a core activity is 
whether or not it is directly necessary for war-fighting. If a 
function is highlighted as core, DOD will invest in process and 
technology to improve performance.''
    I was delighted to read that. My interpretation of that is 
that we recognize we are going to have to have some core 
capability within Government, in other words logistics centers. 
I would ask first of all if that interpretation is accurate.
    Second, when you say ``invest in process and technology to 
improve performance,'' I believe this is something that is 
absolutely necessary, because many of our logistics centers 
have World War II technologies and they cannot really function 
efficiently until that investment is made. Would you respond to 
that? Maybe you too, General Carlson, because I know you are 
familiar with air logistics centers.
    Secretary Wolfowitz. I think absolutely, clearly the thrust 
of that language is to try to make sure that where things can 
be done by the private sector, they are probably better done 
and more efficiently done and we can conserve our resources and 
particularly our very specialized manpower for the core 
capabilities.
    But sometimes a core capability is something that looks 
like a civilian function, but it has to be taken into battle 
with you, so it is different, or it has to meet performance 
standards that are unique to the military and therefore it is 
different. So it is something that has got to be looked at.
    Senator Inhofe. I think you addressed that in this last 
sentence that I did not read. It says: ``In these areas, DOD 
will seek to define new models of public-private partnerships 
to improve performance.'' I agree with that. I believe that can 
be done, because you accomplish not just the benefits that are 
natural from the private sector, but also the fact that you 
have government control of those core functions.
    Did you have any comment on that, General?
    General Carlson. No, sir, I do not have any comment.
    Senator Inhofe. Fine.
    I would like to ask both of you: In your report you say 
``access to key markets and strategic resources.'' I know that 
you have been watching and are aware of some of the discussion 
and debate that has gone on concerning our dependency for 56.6 
percent of our oil from foreign sources, half of that being 
from the Middle East. An extreme way of presenting that, which 
I have done on the floor several times, would be it is 
ludicrous to assume that we should be dependent upon Iraq for 
our ability to fight a war against Iraq.
    As you look down the road today and then 10 years from now, 
what you are doing in this report, where do you see that 
dependency going and how important is that to you in terms of 
our capabilities?
    Secretary Wolfowitz. Well, I think the dependency is a 
serious strategic issue. I really would have to defer to the 
Energy Department people on what the projections are, but my 
sense is that that dependency is projected to grow, not to 
decline. I think you are right to point out that it is not only 
that we in a sense would be dependent on Iraqi oil, but the oil 
is a weapon. The possibility of taking that oil off the market 
and doing enormous economic damage with it is a serious 
problem.
    I do think that energy conservation and energy production 
are part of the answer. I also think you have to reduce the 
number of people who have their hands on that kind of trigger, 
who can disrupt world markets.
    Senator Inhofe. I do agree with that. My time is up, but I 
would only say that any one incident, once we are as dependent 
as we are in terms of our ability to fight a war, could be 
extremely disruptive. We have had these, the Exxon Valdez 
things, or things that are intentional. So I would hope that 
you keep that in mind as a real critical thing in terms of our 
capabilities in the future.
    Secretary Wolfowitz. We will. Thank you, Senator.
    Senator Inhofe. Well, if my time is not up I will go on for 
a while here.
    Chairman Levin. You got an extra minute. Congratulations. 
It will not happen again. [Laughter.]
    Let us see. Senator Roberts is next.
    Senator Roberts. These same kind of tactics were used by 
Oklahoma during the K State football game. [Laughter.]
    Chairman Levin. Did it do them any good?
    Senator Roberts. Well, yes. They won, as a matter of fact. 
Actually, we won, but the score did not indicate that, Mr. 
Chairman. Do not take that out of my time, please.
    I have a follow-up in regards to the question by the 
chairman on who plays the lead role in regards to terrorism at 
DOD, and I was not quite sure about your response, Mr. 
Secretary. Thank you for coming. Thanks to the General for the 
work you do.
    We had on the Emerging Threats and Capabilities 
Subcommittee about a year ago four people from DOD come down 
and talk to us about terrorism and homeland security. I asked 
them to sit in order of their authority or command, and they 
did not know where to sit.
    So we said: All right, special operations and low-intensity 
conflict (SOLIC) is in charge. Then DOD had some different 
ideas and we said: All right, the Secretary will designate 
somebody. We thought it was going to be SOLIC. I read in the 
press it is going to be John White. I have no real quarrel with 
that. Then you have indicated to the chairman that that is not 
permanent, or you are going to continue to work with that once 
Governor Ridge comes to town.
    Where are we with that?
    Secretary Wolfowitz. Well, earlier this year, in part 
precisely at Congress' advice, we in fact designated the 
assistant Secretary of SOLIC as the person in charge. We do not 
have a confirmed assistant secretary yet. We have a crisis of a 
magnitude that we had not anticipated, and we have a new 
Cabinet level officer working on this with whom we are going to 
have to engage closely.
    So as an interim measure, we concluded that the best way to 
fill this gap for the time being was to ask John White to do 
double duty.
    Senator Roberts. I see. So it is interim?
    Secretary Wolfowitz. It is interim, and I think we have to 
really go back to the ground floor to think through what is 
needed, and it may indeed be an entirely new position.
    Senator Roberts. We have a pretty good hearing record in 
that regard, and I would urge you to take a look at that. We 
will be happy to make it available.
    Leap-ahead technology, seed corn. The subcommittee I am 
privileged to serve on is in charge of the research in regards 
to our technology and our advantage as we fight this 
asymmetrical warfare. By the way, thank you for the QDR. The 
last one was numbers-driven; it was not policy-driven, with all 
due respect. This one is certainly driven by transformation and 
what happened on September 11.
    But you say a level of 3 percent DOD spending per year, 
that is the ability to allow us, not only now but 5 years, 10 
years from now, to maintain our superiority. My question is, 
will the Department reach this goal in fiscal year 2003 budget 
submission?
    Secretary Wolfowitz. Certainly I know it is a great concern 
of the Secretary of Defense, and I am assuming if we do not 
there will be very good reasons for not. It is near the top of 
the defense planning guidance directive.
    Senator Roberts. I want to buttress the remarks by my 
distinguished colleague from Arkansas who is trying to do 
everything he can to make sure the warfighter has access to the 
proper safeguards in regards to biological terrorism or 
warfare. If you see the program that is put together by the 
Center for International Strategic whatever it is, CSIS--Center 
for International Strategic--what is the ``S'' for?
    Secretary Wolfowitz. ``Studies.''
    Senator Roberts. Okay, ``Studies.'' All right, thank you. 
You have to learn the acronyms.
    They have something called Dark Winter and it is a Power 
Point presentation that I urge you to see. I know that Senator 
Warner has seen it. Some of us have seen it. That is something 
that is a very serious situation. Obviously, the military would 
be called in during a situation like that. I cannot think of 
anything that is more important right now than to focus on 
this.
    Senator Hutchinson has tried to point out that we cannot do 
it all in the private sector. I am not saying not do any of it 
in the private sector, but my goodness, we have to get involved 
in that. I noted your response to him. I just wanted to 
underscore the importance of that and that bioterrorism now I 
think is numero uno on the public's mind.
    I know your answer is that I am sure you will do that, 
because my time has expired.
    Secretary Wolfowitz. Yes, we will do that, Senator.
    Senator Roberts. Thank you.
    Secretary Wolfowitz. Thank you.
    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    The QDR has been anxiously awaited. I know you have had a 
lot going on in recent weeks, and it is good to receive it. I 
would just add how much I appreciate, Secretary Wolfowitz, your 
leadership and General Carlson and others in the past few weeks 
to prepare our Nation to exert force if need be around the 
world in an effective way.
    I have been very pleased. I traveled around my State a lot 
in the last several days and weeks and people are complimenting 
you favorably. The American people, I think, feel good about 
our military and what you are doing today.
    With regard to the QDR, I am troubled and concerned that 
maybe the status quo tended to prevail. I had expected some 
disruption, some broken china perhaps, some protests, even 
protests from myself, at some changes that we might have 
expected to see. It looks like we just continued our general 
direction.
    There is good transformation, which I support. But I 
noticed a Pentagon press release quoting a senior defense 
official referring to the QDR. He said: ``It is a concerted 
effort to try to concentrate on those items in which the 
Secretary''--the Defense Secretary--``the Chairman, the Vice 
Chairman of the Chiefs of Staff, the service secretaries, the 
service chiefs, the combatant commanders, and the lead under 
secretaries in the Department have all agreed upon.''
    I guess those are the right people to be involved in a QDR 
strategy, but I am concerned that maybe we work too hard to 
achieve consensus and perhaps not enough change. Would you 
comment on my concern?
    Secretary Wolfowitz. I think there is both there, Senator. 
The consensus did not come because everybody said in the 
beginning that this is the way to do it. It took a great deal 
of push from the Secretary. We have a different way of 
structuring forces. We have different ways of measuring risks.
    I think at the same time there can be too much measuring 
things by broken crockery. We have a big organization with lots 
of people with good ideas and I think you need to lead them and 
encourage them to bring those ideas to the surface. But there 
is real change here. This is not the QDR that would have been 
produced if we had just gone on autopilot 6 months ago.
    Those sessions that the Secretary held with those senior 
people that you mentioned were driven over and over again by 
the Secretary, by his ideas, by his insistence that the course 
we are on does not work, that there is a mismatch between 
strategy and resources, that we are sizing our forces based on 
the construct of occupying two capitals at the same time when 
we have much higher priorities than doing that, by some very 
serious debate about this issue of what is long-range precision 
strike.
    I have to say that in my view there is a place where the 
Army was right against some of the people--and I do not mean my 
colleagues in the Air Force; I mean some of my civilian 
colleagues--who tended to think long-range strike is a mission 
for air forces. In my view it is a mission for both together. 
Frankly, I think we still have a longer way to go.
    I think consensus is important at the end of the day, 
because you have to take a very big organization and move it 
with some coordination in one direction. But it was not the 
direction it was headed on 8 months ago.
    Senator Sessions. Consensus is valuable. Certainly 
dissension and serious division is not healthy, and you have 
achieved that consensus, and I know that you and Secretary 
Rumsfeld have challenged this Department to rethink everything 
that you are doing. So I have no doubt that we are going to 
make some progress.
    As I understand it, on forces we are basically unchanged. 
On the two MTWs we are not fundamentally changed.
    Secretary Wolfowitz. No, I would say it depends on what you 
mean by ``fundamental.'' We are still talking about two 
conflicts in overlapping time frames, but we are not talking 
about two MTWs sized the way they were sized before.
    Senator Sessions. My time is up. I would just mention two 
things. We have had some recent meetings with Secretary 
Aldridge over the destruction of poison gases that are stored 
in Alabama and other places. I believe he is going to fix that, 
but there is a loss of confidence in the community in the 
Army's ability to do that safely. So we are going to have to 
re-establish that, number one.
    Number two, we just learned that the cost of that whole 
national demil program has gone from $17 billion to $24 
billion. Before that it was much lower than $17 billion, so 
that number is just escalating. I think you have a real 
challenge to do that safely. No community can expect this 
dangerous gas to be destroyed recklessly or in an unsafe 
manner, but that is a lot of money by any standards, $24 
billion. I think it is worth your personal attention.
    Secretary Wolfowitz. It will get it. Thank you, Senator.
    Chairman Levin. Thank you.
    Senator Collins.
    Senator Collins. Mr. Chairman, I recognize that Secretary 
Wolfowitz's time is very short, so I am going to submit the 
majority of my questions for the record.
    Mr. Secretary, I would just like to ask you a couple of 
quick questions. One is what changes, if any, were made in the 
QDR as the result of the September 11 attacks? I know the 
majority of work was done prior to the attacks. Specifically, 
had you intended that homeland defense would be the 
Department's top priority prior to the attacks on September 11?
    Secretary Wolfowitz. Definitely, and that was one of the 
important things that defined this paradigm shift. I would say 
the principal change is that prior to September 11 we were 
envisioning as a last thing to try to close this was to make 
some projections of what savings we plan to achieve through 
efficiencies or eventually, if necessary, through cuts in end 
strength and force structure. Let me back up and say it a 
little differently--what we envisioned was the investment 
requirement for transformation and modernization and looked at 
how a projection of how that could be achieved through a 
combination of efficiencies and cuts on the one hand and new 
resources on the other.
    Frankly, given the new situation and given the many new 
resource requirements that are coming down, we thought that any 
such projection would at this point be kind of meaningless. So 
we backed off of that.
    But with respect to this question of detail on force 
structure and detail on end-strength, we did not simply take 
status quo because that was convenient. We took status quo in 
terms of force structure after the Positive Match exercise that 
assessed the current force structure as roughly meaning the 
current strategy.
    That by the way is a change, because with the old strategy 
there was a serious risk entailed in the current force 
structure. We took the current end-strength as the starting 
point because we know there are already very high PERSTEMPO and 
OPTEMPO problems in the forces even with the numbers that we 
have. We think in some of the services, they may be able to 
manage that down better, in which case they can look at end-
strength reductions. But the most important thing is they not 
do it in a way that creates very high and dangerous OPTEMPOs 
and PERSTEMPOs in the process.
    That is a starting point, but it was not selected because 
we like status quo. It was selected because we sensed at the 
current end-strength and current force structures we were just 
at about a point of serious strain in the force.
    Senator Collins. My second question with regard to homeland 
defense is: Is the Pentagon giving consideration to creating a 
single combatant commander to manage the Pentagon's domestic 
security efforts?
    Secretary Wolfowitz. Yes, we are, Senator.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Senator Collins, thank you.
    Both of our witnesses, we thank you. We will continue this 
hearing in the near future at a time to be determined, and good 
luck.
    Secretary Wolfowitz. Thank you.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

              AUTHORITY TO RESPOND TO NATIONAL EMERGENCIES

    1. Senator Levin. Mr. Secretary, the committee recently received 
two legislative initiatives from Secretary Rumsfeld. The first 
initiative was a request for authority for the Secretary of Defense for 
the duration of a war or national emergency, consistent with the 
fundamental purposes of the Goldwater-Nichols legislation, to 
reorganize those components of the Department that the Secretary of 
Defense determines are necessary to support such emergency. In addition 
to noting that the Nation has been living under a state of national 
emergency for one reason or another for several decades, I do have a 
few questions about this proposal.
    First of all, can you confirm that I am correct that the Nation has 
been living under a national emergency of one kind or another for 
several decades?
    Secretary Wolfowitz. In 1976, the National Emergencies Act 
terminated powers and authorities possessed as a result of any 
declaration of national emergency in effect when that Act became law. 
The Act also provided an automatic termination provision on the 
anniversary date of all subsequent declarations of national emergency 
unless the President continued the declaration beyond that date, 
notified Congress and published his decision in the Federal Register. 
Since 1976 the Nation has at various times lived under declarations of 
national emergency. Presidential Proclamation 7463 of September 14, 
2001, ``Declaration of National Emergency by Reason of Certain 
Terrorist Attack,'' remains in effect today.

    2. Senator Levin. What is the duration of all national emergencies 
declared since 1950?
    Secretary Wolfowitz. From 1950 until enactment of the National 
Emergencies Act in 1976, national emergencies continued until 
terminated by law or act of the President. Since enactment of the 
National Emergencies Act, all declarations of national emergency have 
terminated on the anniversary date of the declarations unless the 
President decided to continue the declarations beyond that date, 
notified Congress and published his decision in the Federal Register.

    3. Senator Levin. The sectional analysis for the proposal states 
that the Secretary of Defense has acquired ``enormous additional 
responsibilities'' due to the horrific events of September 11. Could 
you describe those ``enormous additional responsibilities?''
    Secretary Wolfowitz. Responsibilities that the Secretary of Defense 
has acquired since the attacks of September 11 include running the 
combat air patrol mission over the United States, helping to build a 
coalition of supporting nations for our war on terrorism, conducting 
the military aspects of that war in Afghanistan, coordinating military 
support to civil authorities in our Nation, and supervising the 
Department's response to the attack on the Pentagon to include support 
for the families of the victims.

    4. Senator Levin. Can you tell me what you believe are the 
fundamental purposes of the Goldwater-Nichols legislation?
    Secretary Wolfowitz. I consider the fundamental purposes of the 
Goldwater-Nichols legislation to be to strengthen civilian authority in 
the Department of Defense; to improve military advice provided to the 
President, the National Security Council, and the Secretary of Defense; 
to place clear responsibility on the commanders of the combatant 
commands for the accomplishment of missions assigned to those commands 
and ensure that the authority of those commanders is fully commensurate 
with that responsibility to increase attention to the formulation of 
strategy and to contingency planning; to provide for more efficient use 
of defense resources; to improve joint officer management policies; and 
otherwise to enhance the effectiveness of military operations and 
improve the management and administration of the Department.

    5. Senator Levin. Finally and most importantly, can you tell me 
what kind of reorganization the Secretary might want to make to respond 
to the national emergency declared by President Bush by reason of the 
September 11 terrorist attacks?
    Secretary Wolfowitz. We are studying a variety of ways to 
reorganize the Department of Defense, in concert with changes to the 
Unified Command Plan, to ensure a comprehensive, efficient and 
effective response to terrorism. Accordingly, I am unable to provide 
specifics at this time. However, we will provide you with details as 
our review progresses.
 additional civilian officers in the office of the secretary of defense
    6. Senator Levin. Mr. Secretary, the other legislative proposal 
would authorize the Secretary of Defense to establish an additional 
position of Under Secretary of Defense and three additional Assistant 
Secretaries of Defense.
    Why would the broad legislative authority referred to in the above 
question be necessary if you are requesting an additional under 
Secretary of Defense and three Assistant Secretaries of Defense?
    Secretary Wolfowitz. We are currently considering a broad range of 
potential reorganization ideas but they are not yet sufficiently 
developed to present to Congress. In general, however, we support 
legislation providing increased discretionary authority in the 
Secretary of Defense to organize the Department in a manner he 
determines will best accomplish the Department's missions.

    7. Senator Levin. It appears that the additional Under Secretary 
would be assigned the responsibilities currently required to be 
assigned to an Assistant Secretary of Defense to provide overall 
direction and supervision for policy, program planning and execution, 
and allocation and use of resources for the activities of the Defense 
department for combating terrorism--is that correct?
    Secretary Wolfowitz. No decision has been made regarding the 
combating terrorism function within the Office of the Secretary of 
Defense. We will provide you with details as our review progresses.

    8. Senator Levin. Can you tell us what duties Secretary Rumsfeld 
has in mind for assignment to the three additional assistant 
secretaries of defense?
    Secretary Wolfowitz. We have not reached any conclusions regarding 
what assignments three additional assistant secretaries might have. We 
will provide you with details as our review progresses.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                       QUADRENNIAL DEFENSE REVIEW

    9. Senator Lieberman. Mr. Secretary, in the QDR you state that ``to 
identify the best available solutions to emerging operational 
challenges, the defense strategy will employ military field exercises 
and experiments.'' You go on to state that these exercises represent a 
``critical phase'' in the transformation of our military. The QDR 
states that ``DOD will explore the need to establish a joint and 
interoperability training capability, including a Joint National 
Training Center, . . .'' and that ``DOD will consider the establishment 
of a Joint Opposing Force and increasing the Joint Forces Command 
exercise budget.'' Describe your plan for doing this.
    Secretary Wolfowitz. The Department is currently studying a variety 
of options for enhancing experimentation and exercises to further DOD's 
transformation goals. These studies are wide-ranging and involve the 
Military Departments, the Joint Staff, the Joint Forces Command, and 
the Office of the Secretary of Defense. They will focus on mechanisms 
to strengthen joint operations in support of the six operational goals 
outlined in the QDR report. The initial results of these studies will 
be reflected in the fiscal years 2004-2009 defense program.

    10. Senator Lieberman. What are your goals regarding joint 
operations?
    Secretary Wolfowitz. Future military responses will require the 
rapid movement and integration of joint and combined forces. The QDR 
outlined goals in five areas for strengthening joint operations.
    To be successful, operations will demand a flexible, reliable, and 
effective joint command and control architecture that provides the 
flexibility to maneuver, sustain, and protect U.S. forces across the 
battlefield in a timely manner. The Department will examine 
interoperable standards, doctrine, tactics, techniques, and procedures 
to facilitate this integration.
    The Department also will develop proposals to establish a prototype 
for Standing Joint Task Force (SJTF) Headquarters. The headquarters 
will provide uniform, standard operating procedures, tactics, 
techniques, and technical system requirements, with the ability to move 
expertise among commands.
    In addition, the Department will examine options for establishing 
Standing Joint Task Forces (SJTFs). SJTF organizations will seek to 
develop new concepts to exploit U.S. asymmetric military advantages and 
joint force synergies.
    To strengthen the Secretary of Defense's management of the 
allocation of joint deterrent and warfighting assets from all Military 
Departments, the QDR calls for the establishment of a joint presence 
policy. Establishing a joint presence policy will increase the 
capability and flexibility of U.S. forward-stationed forces and aid in 
managing force management risks. It will also allow for better 
coordination in the readiness and tempo of operations of all U.S. 
forces.
    DOD will pursue actions to sustain the force more effectively and 
efficiently. Specific areas will include a dramatically improved 
deployment process and accelerated implementation of logistics decision 
support tools.

    11. Senator Lieberman. What percentage of your budget will be 
allocated for joint operations?
    Secretary Wolfowitz. Achieving the Department's transformation 
objectives requires joint forces that are more responsive, networked, 
scalable, task organized into modular units, and capable of integration 
into joint and combined operations than are today's forces. Toward 
those ends, the Department is working on a number of fronts to enhance 
jointness, including strengthening joint command and control, improving 
joint military organizational arrangements, and enhancing joint 
exercises and experimentation. The Department does not explicitly 
identify separate funding for joint operations. 

    12. Senator Lieberman. What is the long-term vision regarding 
jointness?
    Secretary Wolfowitz. Enhancing jointness is a means for achieving 
the defense policy objectives of assuring allies and friends, 
dissuading future military competition, deterring threats and coercion 
against U.S. interests, and decisively defeating any adversary. The 
Department's vision for jointness is to greatly improve the performance 
of U.S. military forces by training, experimenting, and operating 
jointly to better meet future challenges. DOD must develop the ability 
to integrate combat organizations with joint forces capable of 
responding rapidly to events that occur with little or no warning.


    13. Senator Lieberman. Mr. Secretary, strategy implies a method of 
applying limited means to best achieve our security ends, or 
objectives. The QDR does a good job of identifying our key security 
objectives, such as homeland defense, projecting power in an anti-
access environment, the need to control space, and so on. What is not 
clear, however, is how we plan to meet these objectives. What is our 
initial concept for controlling space? 
    Secretary Wolfowitz. The initial concept for controlling space is 
to determine the environment in which DOD assets will be operating, 
provide the necessary protection to ensure their availability to the 
warfighter and to deny that same ability to an adversary as required. 
The Department of Defense has initiated a modernization effort to 
increase the current Space Surveillance Network capability. This 
increased capability will be accomplished through multiple paths to 
include upgrades of ground based radar and optical sensors as well as a 
space-based augmentation. This upgraded Space Situational Awareness 
capability will provide the DOD with the ability to evaluate the space 
environment, which includes the determination of spacecraft locations, 
environmental effects (solar flares, etc.), and any changes to 
spacecraft locations. This information will provide the DOD with the 
battlespace characterization of the space environment. The Department 
is also developing a protection architecture that will be used to 
ensure space asset survivability against near- and far-term threats. 
The DOD is also continuing the development and demonstration of 
terrestrial--based temporary/reversible counter-communications, 
navigation, and surveillance/reconnaissance capabilities that will 
allow the U.S to deny the use of space based assets to an adversary in 
times of conflict.

    14. Senator Lieberman. How do we plan to defeat enemy anti-access 
capabilities?
    Secretary Wolfowitz. The defense strategy rests on the assumption 
that U.S. forces have the ability to project power worldwide. The 
United States must retain the capability to send well-armed and 
logistically supported forces to critical points around the globe, even 
in the face of enemy opposition, or to locations where the support 
infrastructure is lacking or has collapsed.
    The QDR emphasizes the need for new investments that would enable 
U.S. forces to defeat anti-access and area-denial threats and to 
operate effectively in critical areas. Such investments will include: 
addressing the growing threat posed by submarines, air defense systems, 
cruise missiles, and mines; accelerating development of the Army 
Objective Force; enhancing power projection and forcible entry 
capabilities; defeating long-range means of detection; enabling long-
range attack capabilities; enhancing protection measures for strategic 
transport aircraft; and ensuring U.S. forces can sustain operations 
under chemical or biological attack.

    15. Senator Lieberman. Mr. Secretary, it would seem that you would 
have to have some ideas along these lines to inform your priorities 
with respect to modernization, force structure, R&D and 
experimentation. Strategy is fundamentally about setting priorities to 
inform choices. What are your priorities with respect to modernization?
    Secretary Wolfowitz. The Department has a three-fold modernization 
strategy. First, we seek to exploit research and development 
opportunities to ensure that the United States maintains its decisive 
lead in transformational technologies. Specific priorities within the 
research and development program include information systems, stealth 
platforms, unmanned vehicles, and smart submunitions. Second, the 
Department's modernization strategy focuses on advancing the six 
critical operational goals for transformation outlined in the QDR. 
These are:

        <bullet> Protecting bases of operations at home and abroad and 
        defeating the threats of CBRNE weapons. Key investments in this 
        goal include anti-terrorism and force protection programs, 
        chemical and biological countermeasures, and a layered missile 
        defense program.
        <bullet> Assuring information systems in the face of attack and 
        conducting effective information operations. We must invest in 
        robust information operations capabilities, with priority given 
        to computer network defense.
        <bullet> Projecting and sustaining U.S. forces in distant anti-
        access and area-denial environments. As a priority, the 
        Department is investing in anti-submarine, anti-cruise missile, 
        countermine, chemical and biological weapons defense, and 
        counter-air defense capabilities. DOD also aims to enhance 
        power projection and forcible entry capability, accelerate 
        development of the Army's Objective Force, enable long-range 
        attack capabilities, and enhance protection measures for 
        strategic transport aircraft.
        <bullet> Denying enemies sanctuary by providing persistent 
        surveillance, tracking, and rapid engagement. Modernizing to 
        achieve this objective will require substantial investment in 
        intelligence, surveillance, and reconnaissance (ISR) 
        initiatives, including for our Special Operations Forces. Also 
        critical are the acceleration of Trident submarine conversions 
        to guided missile submarines and the procurement of small 
        diameter munitions, unmanned combat aerial vehicles, and ISR-
        capable unmanned aerial vehicles, such as Global Hawk. We are 
        also stressing the need to defeat hard and deeply buried 
        targets.
        <bullet> Enhancing the capability and survivability of space 
        systems. DOD will modernize the aging space surveillance 
        infrastructure, enhance the command and control structure, and 
        evolve the space control system to one capable of providing 
        space situational awareness.
        <bullet> Leveraging information technology and innovative 
        concepts to develop interoperable Joint C\4\ISR. Funding here 
        will focus on achieving an integrated joint and combined end-
        to-end command, control, communication, computer, intelligence, 
        surveillance, and reconnaissance (C\4\ISR) capability.

    Third, we recognized in the QDR that our legacy forces are crucial 
to defeating current threats and must therefore be sustained in the 
near-term. Selective recapitalization will focus on tactical aircraft, 
where the average age is at unprecedented levels, Abrams tanks, B-1 
bombers, Navy ship self-defense, and amphibious assault vehicles.

    16. Senator Lieberman. If unknown at this time, when do you 
anticipate having a full-scale strategy?
    Secretary Wolfowitz. The Department has described a comprehensive 
defense strategy, articulated in the 2001 QDR Report, that outlines 
four defense policy goals and an array of tenets that support those 
goals. The Department is now conducting a combined program/budget 
review to develop for submission to Congress a defense program and 
budget that effectively underwrites this strategy. In addition to the 
program/budget review, a range of other implementing steps are now 
underway that will enable the Department to further realize the QDR's 
goals.

    17. Senator Lieberman. When strategies are formulated, they are 
done so with an idea toward the kind of resources-human and material--
that will be available to sustain them. I assume that in formulating 
your strategy you identified the kind of resources--force structure 
levels, budget levels--that you would need to execute the strategy 
successfully. Do you know what resources will be required for your 
strategy?
    Secretary Wolfowitz. In undertaking the QDR, we had a general 
appreciation for the resources available for defense. However, we were 
determined to make the review strategy-driven, and thus did not 
explicitly address resource requirements. Before the September 2001 
attacks, DOD had planned for gradual increases in defense spending 
accompanied by roughly corresponding increases in available resources 
realized through internal efficiencies. In light of the markedly 
increased requirements associated with the unfolding U.S. war against 
terrorism, however, these prior estimates of available resources are no 
longer accurate. At this juncture, the Defense Department is developing 
new estimates of needed funding while maintaining its commitment to 
realizing internal efficiencies.
    In terms of force structure levels, the QDR used today's current 
Active and Reserve Forces as the baseline from which the Department 
will develop a transformed force for the future. The current force 
structure was assessed across several combinations of scenarios on the 
basis of the new defense strategy and force-sizing construct, and the 
capabilities of this force were judged as presenting moderate 
operational risk, although certain combinations of warfighting and 
smaller-scale contingency scenarios present high risk. As our 
transformation efforts mature, producing significantly higher output of 
military value from each element of the force, DOD will explore 
additional opportunities to restructure and reorganize the Armed 
Forces.

    18. Senator Lieberman. Mr. Secretary, I applaud Secretary 
Rumsfeld's decision to accelerate the conversion of Trident nuclear-
powered ballistic missile submarines (SSBNs) to the nuclear-powered 
cruise missile attack submarine (SSGN) configuration, and to accelerate 
our efforts with respect to unmanned aerial vehicles, such as Global 
Hawk. Such decisions seem consistent with the strategy outline in the 
QDR, as I understand it. The prioritized resources that are listed in 
the QDR appear selective, especially without any indication of the 
status of the many other defense priorities. Discuss your rationale for 
selecting to mention some resources but not others.
    Secretary Wolfowitz. The 2001 QDR Report is a change-oriented 
document that cited specific programs, such as the SSGN and Global Hawk 
programs, as illustrative of the kind of transformative efforts that 
will characterize the strategic direction of the Department in the 
years to come. The detailed deliberations on the President's fiscal 
year 2003 budget submission, which are currently underway, will produce 
a more comprehensive prioritization of program and budget matters.

    19. Senator Lieberman. Mr. Secretary, the discussion of risk 
management is an important, positive addition to this QDR. However, the 
risk framework presented seems generic. Military organizations have 
long been concerned with the ability to field sufficient forces; the 
efficacy of their operations; their ability to modernize in a timely 
way; and the need to establish efficiencies. It seems to me that our 
risk management must be more precisely defined. For example, if our 
ability to defeat anti-access forces is critically dependent upon our 
ability to develop a capacity to destroy critical mobile targets at 
extended ranges, and to conduct highly distributed, highly networked 
operations, how are we hedging against the risk that these kinds of 
capabilities may not be achievable at the requisite levels, or that the 
threat may emerge more quickly than we can develop them?
    Secretary Wolfowitz. As noted in the QDR Report, adopting this risk 
framework is just the beginning of the Department's effort to manage 
and assess risk. The Department is actively working to frame the risks 
identified in the QDR in a number of internal activities. The next step 
is to develop metrics for assessing risks, including metrics associated 
with meeting our transformation goals. These metrics, in turn, will 
help to highlight the types of tradeoffs that you identify.
                                 ______
                                 
              Questions Submitted by Senator Jean Carnahan

                           HOMELAND SECURITY

    20. Senator Carnahan. Secretary Wolfowitz and General Carlson, the 
QDR states, that ``the Defense Department will place new emphasis upon 
counter terrorism training across Federal, State, and local first 
responders, drawing on the capabilities of the Reserve and National 
Guard.'' The National Defense Authorization bill requires the Defense 
Department to better define the role of the National Guard's Weapons of 
Mass Destruction-Civil Support Teams. These teams are being trained to 
de-contaminate affected areas, and help provide medical aid.
    Would you please describe the importance of such programs, and 
detail your commitment to honing our abilities to respond to such 
attacks?
    Secretary Wolfowitz. These are important programs. However, let me 
clarify the mission of the Weapons of Mass Destruction-Civil Support 
Teams (WMD-CSTs). It is to support civil authorities at a domestic 
Chemical Biological Radiological Nuclear or High-Yield Explosive 
(CBRNE) incident site by: identifying chemical, biological and 
radiological agents or substances; assessing current and projected 
consequences; advising on response measures; and assisting with 
appropriate requests for additional state support. They do not 
decontaminate affected areas--only themselves and their equipment. 
Their medical capability is limited to providing aid only to the team 
and advising the on-scene incident commander.
    With regard to the training of state and local first responders, 
the Department has programmed sufficient funds to enable each WMD-CST 
to conduct at least one exercise a month with their local and state 
first responders.
    The Department of Defense is committed to improving our Nation's 
response to such attacks. The 2001 Quadrennial Defense Review 
identified Homeland Security as the Department's highest priority. It 
also directed the Department to undertake a comprehensive study of 
Active and Reserve mix, organization, priority missions, and associated 
resources. The study builds on recent assessments of Reserve component 
issues that highlight emerging roles for the Reserve components in the 
defense of the United States, among other areas.
    This study will provide options and recommendations on the roles 
and responsibilities that the Reserve components will play in Homeland 
Security. It is scheduled for completion in the second quarter of 2002. 
We will use the results to focus the Department of Defense's efforts in 
support of the President's National Homeland Security Strategy.
    General Carlson. The National Guard's Weapons of Mass Destruction-
Civil Support Teams (WMD-CSTs) provide a unique response capability as 
a part of DOD's emerging role in homeland security. WMD-CSTs were 
established to provide support to the lead Federal agency in response 
to a nuclear, chemical or biological attack. Programs such as these 
enable our Nation to apply some of the military's highly specialized 
and often unique skills in support of a coordinated emergency response 
to a WMD event. Department of Defense is firmly committed to providing 
WMD-CSTs the best training and equipment, and we will continue to 
develop and improve our capability to respond to WMD attacks.

                     CHEMICAL-BIOLOGICAL PROTECTION

    21. Senator Carnahan. The QDR states that ``rapid proliferation'' 
of chemical, biological, nuclear and other asymmetric threats ``gives 
rise to the danger that future terrorist attacks might involve such 
weapons. . . . Globalization has increased the availability of 
technologies and expertise needed'' to create these types of weapons.
    Secretary Wolfowitz, according to a recent GAO report, the Defense 
Department is currently unaware of exactly how many protective systems 
it has, or what its true requirements are, because of faulty inventory 
systems. Last week, I offered an amendment to the Defense Authorization 
bill urging the Defense Department to make sure that all DOD 
employees--civilians and military personnel were protected from 
chemical or biological attacks. Would you please comment on the GAO's 
findings, and describe the importance of remedying this problem?
    Secretary Wolfowitz. The GAO report to which you refer concludes 
that the Department under estimated risk to military operations by (1) 
analyzing requirements based on individual equipment items and not 
ensembles (i.e., suit, gloves and boots), and (2) combining this 
service data into a consolidated DOD inventory position, which is 
obscured by service-specific shortages.
    The Department recognizes the added value of assessing risk based 
on complete ensembles for each service. The data to perform such 
assessments is already presented in the Joint Service NBC Defense 
Logistics Support Plan (Appendices A and D) and the Joint Service CB 
Defense Annual Report to Congress (Annex E). The GAO correctly observes 
that the components of an ensemble vary among the services. The mix of 
old and new technologies within each service's inventories complicates 
the definition of a complete ensemble and also affects interoperability 
among the services. We rely on the services' understanding of their 
Basis of Issue (BOI) to provide risk assessments for complete 
ensembles. Other factors pertinent to this issue are the fiscal 
constraints and the realities of deployment scenarios. As such, the 
services also manage risk by using the industrial base to surge and 
produce quantities for an individual component. This mitigates the risk 
implied from limited resources.
    The Department will apply risk against complete ensembles in future 
analysis and will provide appropriate guidance to the services to 
conduct a detailed evaluation of risk of complete ensembles against 
wartime requirements in preparation of the next Annual Report to 
Congress and Logistics Support Plan. The Department will also continue 
to mitigate risk by using the industrial base method. The data 
regarding industrial surge capability to support this methodology will 
be included, as it currently is, in future Chemical and Biological 
Defense program (CBDP) Logistics Support Plans.
    The Department supports the implementation of a fully integrated 
inventory management system to manage chemical and biological defense 
equipment and the use of such system to prepare the required Annual 
Report to Congress and the Annual Logistics Support Plan. The Defense 
Logistics Agency (DLA) is actively involved in a Business System 
Modernization (BSM) Program to replace the current legacy system by 
fiscal year 2005, which will interface with the services. It will be 
state of the art and base on the best commercial practices. Replacement 
of these current legacy systems will give us the greatest opportunity 
to integrate with the system(s) used by each service. Meanwhile the 
Department has established a single focal point for gathering and 
disseminating data to all entities requiring information, including the 
Annual Report to Congress and the Logistics Support Plan, on the 
management of the standard chemical-biological ensemble currently 
fielded to the Joint Warfighter.

                            F/A-18 AIRCRAFT

    22. Senator Carnahan. The QDR indicates that the Defense Department 
has decided to increase aircraft carrier battlegroup presence in the 
Western Pacific.
    General Carlson, will this decision increase the importance of Navy 
aircraft such as the F/A-18 operating in that area?
    General Carlson. The increase in presence of an aircraft carrier 
battlegroup in the Western Pacific is part of a reorientation of global 
posture done to account for new world challenges. One of the goals of 
reorienting the global posture stated in the QDR is to render forward 
forces capable of swiftly defeating an adversary's military and 
political objectives with only modest reinforcement. The current Asian 
theater overseas presence posture is concentrated in Northeast Asia 
based on containing aggression by the former Soviet Union. As outlined 
in the QDR and Defense Planning Guidance, a reorientation of posture 
must be accomplished in conjunction with transformation to meet 
potential threats throughout the Asian Theater such as increasing 
presence and capabilities in the Western Pacific. The capability of a 
carrier battlegroup, which includes the F/A-18, is unmatched by any 
other nation in the world today. The shift in carrier battlegroup 
presence focuses our limited carrier assets in response to today's 
changing strategic environment.


    23. Senator Carnahan. General Carlson, would the Department 
consider acquiring additional Navy tactical aircraft?
    General Carlson. The increase of aircraft carrier battlegroup 
presence in the Western Pacific will be offset by a decrease in 
aircraft carrier battlegroup presence in the rest of the world. This 
change in presence in the Western Pacific will not require additional 
Navy tactical aircraft.

                               B-2 BOMBER

    24. Senator Carnahan. General Carlson, The QDR places a great 
emphasis on expanding America's ability to project power deep into 
Central and East Asia. This committee has often stated support for 
increasing our long range bomber capabilities to accomplish this goal. 
Now, this document has indicated that the Air Force is developing plans 
to increase basing in the Pacific and Indian Oceans.
    Would such plans include developing permanent shelters for B-2 
bombers on Guam and/or Diego Garcia?
    General Carlson. The Department of Defense is investigating a 
number of options designed to improve DOD ability to project power, 
including forward basing or staging various segments of the force. As 
you know, the U.S. military presently has the ability to strike with B-
2s from your home state of Missouri to anywhere in the world as we 
exhibited in both Serbia and Afghanistan. Basing or staging our forces 
closer to where they are needed would lessen the time and fuel required 
to strike an adversary, but may necessitate new agreements with foreign 
governments and the deployment of additional personnel overseas. The 
Department of Defense will continue to investigate options to improve 
DOD projection of power--to include the forward basing of B-2s--but a 
decision has not, to my knowledge, been made.


    25. Senator Carnahan. General Carlson, will the Defense Department 
begin to consider expanding our B-2 fleet?
    General Carlson. Examining and assessing our total joint 
warfighting capability is an on-going process in the Department of 
Defense. Our goal in transforming the force is to achieve the 
objectives of the new defense strategy. At this point in the DOD 
transformation effort, it is premature to state that an increase in the 
B-2 fleet is necessary.


    26. Senator Carnahan. General Carlson, please describe importance 
of expanding American ``access'' to targets in this region of the 
world.
    General Carlson. The Central and East Asian regions have evolved 
both in importance to world economy and in susceptibility to large-
scale military competition. As we have seen in Afghanistan, the 
governments of some of these states may be susceptible to overthrow by 
radical or extremist groups who, in turn, may harbor terrorist 
organizations. With the capabilities of the B-2, we have the ability to 
strike targets anywhere in the world. Expanding our access to these 
areas of the world will not only benefit our security, but also 
increase stability in this critical region.


    27. Senator Carnahan. The QDR states: ``The distances are vast in 
the Asian theater. The density of U.S. basing and en route 
infrastructure is lower than in other critical regions. The United 
States also has less assurance of access to facilities in the region. 
This places a premium on securing additional access and infrastructure 
agreements and on developing systems capable of sustained operations at 
great distances with minimal theater-based support.'' Mr. Secretary, 
General, would you please comment on this passage?
    Secretary Wolfowitz. The potential exists for regional powers to 
develop sufficient capabilities to threaten stability in regions 
critical to U.S. interests. In particular, Asia is gradually emerging 
as a region susceptible to large-scale military competition. Along a 
broad arc of instability that stretches from the Middle East to 
Northeast Asia, the region contains a volatile mix of rising and 
declining regional powers. The governments of some of these states are 
vulnerable to overthrow by radical or extremist internal political 
forces or movements. Many of these states field large militaries and 
possess the potential to develop or acquire weapons of mass 
destruction.
    Maintaining a stable balance in Asia will be a complex task. The 
possibility exists that a military competitor with a formidable 
resource base will emerge in the region. The East Asian littoral--from 
the Bay of Bengal to the Sea of Japan--represents a particularly 
challenging area.
    The reorientation of the global posture takes account of these new 
challenges. New combinations of immediately employable forward 
stationed and deployed forces; globally available reconnaissance, 
strike, and command and control assets; information operations 
capabilities; and rapidly deployable, highly lethal, and sustainable 
forces that may come from outside a theater of operations have the 
potential to be a significant force multiplier for forward stationed 
forces, including forcible entry forces. One of the goals of 
reorienting the global posture is to render forward forces capable of 
swiftly defeating an adversary's military and political objectives with 
only modest reinforcement.
    Based on changes in the international security environment, DOD's 
new strategic approach, and the transformed concept of deterrence, the 
U.S. global military posture will be reoriented to:

        <bullet> Develop a basing system that provides greater 
        flexibility for U.S. forces in critical areas of the world.
        <bullet> Provide temporary access to facilities in foreign 
        countries that enable U.S. forces to conduct training and 
        exercises in the absence of permanent ranges and bases.
        <bullet> Redistribute forces and equipment based on regional 
        deterrence requirements.
        <bullet> Provide sufficient mobility, including airlift, 
        sealift, pre-positioning, basing infrastructure, alternative 
        points of debarkation, and new logistical concepts of 
        operations, to conduct expeditionary operations in distant 
        theaters against adversaries armed with weapons of mass 
        destruction and other means to deny access to U.S. forces.

    Accordingly, the Department has made the following decisions 
affecting the Asian theater:

        <bullet> The Secretary of the Navy will increase aircraft 
        carrier battlegroup presence in the Western Pacific and will 
        explore options for homeporting an additional three to four 
        surface combatants, and guided cruise missile submarines 
        (SSGNs), in that area.
        <bullet> The Secretary of the Air Force will develop plans to 
        increase contingency basing in the Pacific. The Secretary of 
        the Air Force will ensure sufficient en route infrastructure 
        for refueling and logistics to support operations in the 
        Western Pacific.
        <bullet> In consultation with U.S. allies and friends, the 
        Secretary of the Navy will explore the feasibility of 
        conducting training for littoral warfare in the Western Pacific 
        for the Marine Corps.

    General Carlson. We believe the Asian theater to be of great 
importance to the national security of the United States. To better 
protect U.S. interests, the Department of Defense must have the ability 
to project force to any region should the need arise. Force projection 
requires the military to maintain the ability to defeat the efforts of 
U.S. adversaries. The Asian theater, because of the vast distances both 
on the Asian continent and in the Pacific, poses a time-distance 
challenge to U.S. forces both in engaging targets and logistic support. 
This challenge may be partly mitigated through forward basing or 
staging our forces and development of systems that are able to fight at 
long distances with little forward support. This is one of the 
challenges that the transformation of the U.S. military will address.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                       REGIONALLY TAILORED FORCES

    28. Senator Thurmond. Mr. Secretary, the Department's new strategic 
planning calls for maintaining ``regionally tailored forces'' forward 
stationed and deployed in Europe, Northeast Asia, the East Asian 
Littoral, and Middle East/Southwest Asia to assure allies and friends, 
counter coercion, and deter aggression against the United States, its 
forces, allies, and friends. How does this differ from existing policy?
    Secretary Wolfowitz. The reorientation of U.S. military global 
posture takes account of new challenges, particularly anti-access and 
area-denial threats, and emerging capabilities (e.g., new combinations 
of immediately employable forward forces, and expeditionary 
capabilities). The new approach places higher priority on strengthening 
our forward deterrent posture with the aim of swiftly defeating attacks 
with only modest reinforcement and, where necessary, assuring access 
for follow-on forces. A key objective of U.S. transformation efforts 
over time will be to increase the capability of America's forward 
forces, thereby improving their deterrent effect and possibly allowing 
for reallocation of forces now dedicated to reinforcement to other 
missions.

                  RAPID TRANSFORMATION OF ARMED FORCES

    29. Senator Thurmond. Mr. Secretary, in your opening statement you 
indicate that: ``To meet the challenges over the horizon, we must 
transform our Armed Forces more rapidly, more creatively, and even more 
radically than we had previously planned.'' What time period are you 
contemplating when you say ``we must transform our Armed Forces more 
rapidly?''
    Secretary Wolfowitz. In the course of the QDR, we came to 
understand that our transformation efforts cannot wait two or three 
decades to produce results. Many of the problems we will confront could 
well be present this coming decade. Now, as we fight a war on 
terrorism, we see a new urgency to transform our forces.
    Nevertheless, transformation is not an end state. Rather, it is the 
combination of those ongoing processes and activities that result in 
the discovery of new or fundamental shifts in underlying rule sets, 
creating new sources of power, and yielding profound increases in U.S. 
military competitive advantages. Toward that end, the Department has 
already commenced the process of transformation. Through our service 
and joint experimentation initiatives, the latter orchestrated 
primarily by the Commander of U.S. Joint Forces Command (JFCOM), we are 
aggressively pursuing concepts and initiatives that could have a 
profound impact on how we organize our forces and conduct military 
operations. This coming summer, JFCOM will conduct the first in a 
scheduled series of major joint field experiments, which we have coined 
``Millennium Challenge 2002.'' It is our intent to garner lessons from 
this effort and directly apply them as part of the transformation 
process.
    In addition, the services have articulated concepts for waging 
warfare on the future battlefield and have identified transformational 
initiatives to accomplish these visions. Continued support and fielding 
of systems critical to our transformational efforts is required as we 
forge ahead with these goals. To lend support to the Department's 
transformational initiatives, the Secretary recently established the 
Directorate for Force Transformation and vested this new office with 
the responsibility of advising the Department on transformation 
strategies. Though still in an embryonic stage, we view this 
directorate as a critical focal point to our efforts. The rapidity with 
which we can commence the transformation process is bounded only by our 
willingness to change, to evolve, to explore, to experiment, and to a 
degree, by the availability of funding. To sustain these efforts we 
welcome and look forward to your continued interest and support.

                          IMPACT ON OUR ALLIES

    30. Senator Thurmond. Mr. Secretary, the Gulf War and the current 
effort to eliminate terrorism and those that support it demonstrate 
that the United States must rely on coalitions to achieve its goals. 
How is the perceived requirement to form coalitions to execute our 
military operations addressed in the QDR?
    Secretary Wolfowitz. Through the QDR, the Department of Defense has 
developed a new strategic framework to defend the Nation and secure a 
viable peace. This framework is built around four defense policy goals 
of assuring allies and friends, dissuading future military competition, 
deterring threats and coercion against U.S. interests, and, if 
deterrence fails, decisively defeating any adversary.
    These defense policy goals are supported by an interconnected set 
of strategic tenets that comprise the essence of the new U.S. defense 
strategy. One of these tenets is ``Strengthening Alliances and 
Partnerships.'' As witnessed in the wake of the terrorist attacks on 
the United States, NATO's invocation of Article V demonstrates the 
commitment of America's partners to collective defense, which bolsters 
the security of the United States. The need to strengthen alliances and 
partnerships has specific military implications. It requires that U.S. 
forces train and operate with allies and friends in peacetime as they 
would operate in war. This includes enhancing interoperability and 
peacetime preparations for coalition operations, as well as increasing 
allied participation in activities such as joint and combined training 
and experimentation.

                    REVIEW OF THE ACTIVE RESERVE MIX

    31. Senator Thurmond. General Carlson, to support the revised 
strategy, the Department will continue to rely on Reserve Component 
forces. To ensure the appropriate use of the Reserve Components, the 
Department plans to undertake a comprehensive review of the active and 
Reserve mix, organization, priority missions and associated resources.
    The current crisis places additional emphasis on this review. When 
do you expect to start and complete this critical review?
    General Carlson. The Department is currently developing 
alternatives for conducting the study. The initial report is 
anticipated to be completed in the May/June timeframe.
              reorienting the u.s. military global posture
    32. Senator Thurmond. General Carlson, based on changes in the 
international security environment, Department of Defense's new 
strategic approach, and concept of deterrence proposed by the 
Quadrennial Defense Review, there will be a need to improve mobility, 
including airlift, sealift, prepositioning, basing infrastructure, 
alternative points of debarkation, and new logistical concepts.
    While you are calling for these improvements, there is a need to 
modernize and to replace or repair the existing infrastructure. How 
would you prioritize the allocation of fiscal resources to support 
these demands?
    General Carlson. To meet our Nation's global responsibilities, our 
ability to move and sustain combat forces virtually anywhere in the 
world must be maintained. The increased reliance on strategic lift to 
support global military requirements remains critical and represents a 
major priority for future planning. Our new strategy requires continued 
commitment to presently programmed improvements to our en route 
infrastructure. Establishing new en route infrastructure to meet non-
traditional deployment requirements presents additional strains on 
fiscal resources. We will begin to address these issues in our ongoing 
fiscal year 2003 program and budget review. We are also continuing to 
evaluate our infrastructure requirements as a function of overseas 
presence and overseas basing analyses to support the new strategy. We 
expect to complete these analyses during 2002 and will use the results 
in subsequent planning and programming.

         STANDING JOINT TASK FORCE HEADQUARTERS AND TASK FORCES

    33. Senator Thurmond. General Carlson, the Quadrennial Defense 
Review acknowledges that excessive operational demands on the force 
have taken a toll on military personnel. Despite this realization, the 
Quadrennial Defense Review calls for establishing Standing Joint Task 
Force Headquarters for each regional combatant commands and Standing 
Joint Task Forces to focus on critical operational goals.
    Will you be able to achieve these objectives within the current 
manpower ceilings and how will these new organizations impact the 
operational tempo of our Armed Forces?
    General Carlson. The Department is studying several different 
concepts for implementation of the Quadrennial Defense Review 
recommendations. We will not have a definitive answer to your questions 
until these concepts have been refined. A key milestone in this process 
will be the Millennium Challenge Joint Experiment, planned for the 
summer of 2002. The results of this experiment will provide a baseline 
for evaluation of the Standing Joint Task Force Headquarters options.
    Operational tempo remains a key concern, as it was during 
evaluation of Standing Joint Task Forces and Standing Joint Task Force 
Headquarters within the Quadrennial Defense Review. We are committed to 
ensuring that implementation of the Quadrennial Defense Review 
recommendations will not adversely affect operational tempo.

                 RECAPITALIZATION OF THE LEGACY FORCES

    34. Senator Thurmond. General Carlson, with all the emphasis on 
transforming our Armed Forces, which will take some time, we must not 
forget the readiness of our legacy forces. In my judgment, this will be 
a significant challenge since modernization has been underfunded for 
the past 10 years. What are your immediate needs for recapitalizing the 
legacy force?
    General Carlson. As the Quadrennial Defense Review 2001 report 
highlights, the Department plans to transform today's force while also 
selectively recapitalizing legacy systems. Legacy force 
recapitalization is  especially challenging because of the underfunding 
you mentioned that has occurred since the end of the Cold War.
    The task of identifying which specific legacy systems to 
recapitalize as we transform the force is being addressed in our 
ongoing fiscal year 2003 program and budget review. It would be 
premature for me to comment on the results of this review. The outcome 
will be available in the President's budget scheduled for delivery to 
Congress early next year.

                         HIGHEST PRIORITY NEEDS

    35. Senator Thurmond. General Carlson, based on the conclusions in 
the Quadrennial Defense Review, our strategic focus will shift from 
Europe toward Asia. This shift will require a new basing structure, en 
route facilities and, most important, an increased reliance on 
strategic lift. What are the increased requirements for strategic lift 
and how soon will the Department meet this requirement?
    General Carlson. The increased requirements for strategic lift to 
support a shift in strategic focus from Europe to Asia have not been 
specifically quantified. However, the Quadrennial Defense Review 
established the target for completing identification of global 
strategic lift requirements, which include contingencies beyond Europe. 
We are also reassessing our mobility requirements based upon the mix of 
new near- to mid-term threats and missions. As stated in the 
Quadrennial Defense Review, follow-on mobility analyses will be 
completed in the coming years to ensure we meet the strategic mobility 
requirements of the new strategy.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                         SCIENCE AND TECHNOLOGY

    36. Senator Santorum. Mr. Secretary, with respect to research and 
development, the Quadrennial Defense Review states that:
    ``A robust research and development effort is imperative to 
achieving the Department's transformation objectives. DOD must maintain 
a strong science and technology (S&T) program that supports evolving 
military needs and ensures technological superiority over potential 
rivalries. Today and well into the foreseeable future, however, DOD 
will rely on the private sector to provide much of the leadership in 
developing new technologies.''
    This is hardly a new concept. Yet, even now, the Department of 
Defense fails to adequately budget resources need to produce ``leap 
ahead'' advances to propel the transformation of our military. Instead, 
Congress has continually added to the S&T portion of the budget 
requests submitted by the President.
    With this in mind, why are we to believe that DOD will adequately 
budget for critical S&T investments?
    Because industry profits from the serial production of ``legacy 
systems,'' how will DOD incentivize or leverage new R&D from the 
commercial world?
    Secretary Wolfowitz. It is the Department's goal to fund S&T at a 
level adequate to ensure the technological superiority of our Armed 
Forces. We have consistently supported investment that, at a minimum, 
sustains 0 percent real growth in S&T funding. It is now the 
Department's goal to grow the S&T investment to be 3 percent of the 
total Defense budget by fiscal year 2007. The fiscal year 2002 
President's budget request for S&T is $8.8 billion, which is an 
increase of 17 percent over the fiscal year 2001 request of $7.5 
billion, and almost matches the fiscal year 2001 congressional 
appropriation of $9.1 billion. We will continue to make progress toward 
reaching the 3 percent goal. In addition, we realize many of today's 
technology leaders are firms having little or no experience contracting 
with DOD and the Department has worked with the congressional 
committees in developing ``Other Transaction Authority'' to make it 
easier to do business with these firms.

                         DOD-SPONSORED RESEARCH

    37. Senator Santorum. Mr. Secretary, can you explain how Department 
of Defense-sponsored research in American universities will help to 
propel this transformation initiative?
    Secretary Wolfowitz. DOD-sponsored research at universities 
underpins the development of future military capabilities in two ways. 
First, universities are world-class research performers in science and 
engineering fields important to national defense. Second, investment in 
university research pays additional dividends through the associated 
training of scientists and engineers, thereby helping to ensure the 
future availability of talent needed for defense research and 
development. Universities are prolific sources of new knowledge and 
understanding, as well as future scientists and engineers, in the DOD 
Basic Research program, the portion of DOD Science and Technology where 
their involvement is greatest. With the benefit of hindsight, we can 
see patterns of prior research, much of it performed at universities, 
that spawned today's revolutionary military capabilities, including the 
Global Positioning System, stealth, night vision, and precision strike. 
We expect equally important new capabilities to emerge over the long 
term from today's investments in university research in areas such as 
those pertinent to nanotechnology, smart materials and structures, 
information technology, human-centered systems, compact power, and 
biomimetics. 

                 SHORT-RANGE TACTICAL AVIATION PROGRAMS

    38. Senator Santorum. Mr. Secretary, if anti-access issues will 
challenge the military in the 21st century, and if projecting power is 
a key factor to be achieved to meet these future threats, how do 
current short-range tactical aviation programs such as the F/A-18 E/F 
Super Hornet, F-22 Raptor, and Joint Strike Fighter address this 
requirement?
    Secretary Wolfowitz. Future U.S. force projection will require a 
broad range of capabilities due to the uncertainty of the threats that 
may develop. The principal combat aircraft being acquired now, such as 
the F/A-18E/F, F-22 and Joint Strike Fighter (JSF), will complement 
other existing and planned capabilities to give the U.S. the ability to 
project power wherever that may be necessary. The U.S. bomber force, 
cruise missiles, and forward-deployed carrier or ground-based tactical 
aviation must provide the capability to reach out and strike at well-
defended targets on short notice across intercontinental distances. 
While long-range bomber forces, as well as naval ship- and submarine-
launched missiles can currently provide such capabilities, they cannot 
provide the tempo of operations, and consistent pressure on the enemy 
that the F/A-18E/F, F-22, and JSF can provide.
    The versatility of tactical aviation, complemented by long-range 
strike systems and unmanned combat air vehicles ensures the ability to 
work inside the enemy's tactical decision loop, and deny sanctuary. 
Therefore, tactical aircraft such as F-22, JSF, and F/A-18E/F will be 
critical enablers to counter the 21st century anti-access threats, 
including advanced surface-to-air missiles, fighters, cruise missiles, 
theater ballistic missile sites, and weapons of mass destruction. These 
new tactical aircraft provide substantially longer un-refueled ranges 
than currently deployed fighters, are much more survivable, and with 
advanced mission systems and advanced air-to-surface and air-to-air 
munitions, are far more lethal. They also have smaller logistics 
footprints, the ability to air refuel, and, if necessary, can carry 
external fuel tanks for even greater range. The ``quick turn'' 
capability of these aircraft, combined with affordable numbers, will 
give the U.S. the ability to persist and hold broad expanses of the 
enemy's battlespace at risk 24 hours a day. This cannot be done with 
current ``long-range'' systems alone. These enhanced capabilities 
permit the new generation of advanced fighter aircraft to travel long 
ranges and project power around the globe into areas current aircraft 
are unable to penetrate.

                            HOMELAND DEFENSE

    39A. Senator Santorum. General Carlson, if homeland defense is to 
become a top national security goal, what is the best way to see that 
this mission is met in terms of force structure?
    General Carlson. The first step in this process is to determine the 
appropriate homeland security role for the Department of Defense so 
that force requirements and capabilities can be ascertained. At the 
present time, the Department of Defense homeland security role is still 
emerging. Once we know the requirement, we can then assign and 
apportion force structure based on the priorities of the National 
Command Authorities and within the context of the global spectrum of 
missions that the Department of Defense is required to execute.

    39B. Senator Santorum. Do you advocate assigning this new role to 
the Reserve Components since they are already ``forward deployed''? 
    General Carlson. The question of the appropriate roles and missions 
for the Reserve Components will be addressed by an upcoming Department 
of Defense review that is discussed in the Quadrennial Defense Review 
report. The review will need to be closely linked with emerging 
Department of Defense homeland security requirements to determine the 
most effective mix of both active, Reserve and National Guard personnel 
to carry out the mission. Currently, a number of Guard and Reserve 
units have important roles in our war plans, so changes to the Reserve 
Component roles will need to be assessed with regard to the effect on 
these plans. Although homeland security is of paramount importance, all 
roles and missions for the Reserve Components must be assessed across 
the full spectrum of military operations.

    39C. Senator Santorum. If so, does this mean National Guard units 
will required to give up their combat support role?
    General Carlson. This question is an important one to be addressed 
during the upcoming Department of Defense Reserve Components review 
which will look at the active and Reserve mix, organization, priority 
missions, and associated resources. Changes to the National Guard 
combat support role will need to be assessed in terms of the effect on 
competing war plan requirements.

    39D. Senator Santorum. How might assigning the National Guard or 
Reserves on this mission impact the personnel tempo and operational 
tempo of our active duty forces?
    General Carlson. In recent years, as both active and Reserve Force 
structure has been reduced, the Department of Defense has increasingly 
depended on the Reserve Components to help mitigate the increased 
personnel tempo and operational tempo of our Active Component forces. 
Prior to the September 11 attack on the U.S., Guard and Reserve units 
and individuals were fulfilling both support and operational 
requirements on a global basis. Now, many Guard and Reserve units and 
personnel have been mobilized or are augmenting our Active Component 
forces in the global war on terrorism. An examination of appropriate 
active and Reserve roles and missions to fulfill homeland security 
requirements will need to assess the impact on both the personnel tempo 
and operational tempo of our Total Force.

                         INFORMATION OPERATIONS

    40A. Senator Santorum. General Carlson, since information 
operations are identified as a key concept in future conflicts facing 
the United States as well as a key capability the United States will 
need to develop, do you advocate the ability of United States forces to 
wage offensive information operations against those elements that are a 
threat to the United States?
    General Carlson. Information operations encompass activities across 
the spectrum of military engagement, from peacetime through crisis and 
armed conflict. Offensive information operations therefore include 
peacetime actions taken to shape the environment and influence the 
behavior of adversaries as well as actions to deny an adversary the use 
of his information capabilities in crisis and conflict. Offensive and 
defensive information operations, together with robust and reliable 
command, control, communications, and computer systems and timely, 
accurate intelligence, are essential to attaining information 
superiority and accomplishing our military objectives both in peacetime 
and in war. If we can control information in future battles, by 
influencing the enemy to capitulate or by denying him the ability to 
comprehend the battlespace and execute command and control of his 
forces while protecting our ability to do those things, we will prevail 
more quickly and at lower cost.
    In peacetime operations, such as peacekeeping and humanitarian 
assistance, we still seek to shape the environment in which our forces 
must accomplish their missions. We do this by coordinating the use of 
information operations capabilities against our adversaries with other 
informational activities, such as public affairs and civil-military 
operations, focused on friendly or neutral audiences. By planning and 
executing these activities the same way we would a wartime campaign, we 
can influence the thinking and behavior of foreign audiences, 
neutralize adversary propaganda, and ensure that the American public is 
informed about the efforts of American service members to promote peace 
and stability in the world.
    It is important to remember, however, that the military represents 
only one element of national power, which must be synchronized and 
integrated with the United States Government's other diplomatic, 
economic, and informational activities. The more successful we are in 
integrating the military's shaping efforts with those of other United 
States Government agencies, the more effective our efforts to promote 
American values will be.

    40B. Senator Santorum. What if these threats are not posed by 
nation states or even states, but rather by transnational actors (e.g. 
al Qaeda)?
    General Carlson. The rapid development and explosive proliferation 
of information-based technology means that military operations within 
the information domain are becoming as important as those conducted in 
the domains of land, sea, air, and space. Information technology 
provides one way for potential adversaries to attack the United States 
and our allies. We know from other countries' military literature that 
a number of nations are considering the development and implementation 
of computer network warfare capabilities. We have seen attempts by a 
variety of non-state actors to gain unauthorized access to, or 
otherwise degrade, our information systems. Thus, the threat to our 
military information and information systems by non-state and/or 
transnational actors is real and must be taken seriously. Faced with an 
attack of this nature by a non-state actor, an offensive information 
operations capability such as computer network attack may offer the 
most effective means of defeating the adversary's efforts.
    Transnational actors such as al Qaeda also depend upon a supportive 
environment from which they can plan and execute operations against the 
United States. Psychological operations are an offensive information 
operations capability that can help deprive a hostile transnational 
actor of active support, or even turn public opinion against it. Loss 
of a supportive environment will degrade the capabilities of a hostile 
non-state actor even when conventional military action against that 
actor is not an option.

     40C. Senator Santorum. Will it be acceptable to shutdown or 
cripple countries that host these transnational actors?
    General Carlson. The extent to which United States military forces 
will degrade any adversary county's ability to perform normal functions 
is a matter for the National Command Authorities to decide, in keeping 
with national strategic objectives.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                       QUADRENNIAL DEFENSE REVIEW

    41. Senator Collins. Mr. Secretary, at the heart of the QDR is the 
drive toward a strategy driven budget rather than a budget driven 
strategy. I agree with this approach, and will do everything I can to 
help ensure that the resources you need are available. While I 
understand that the real investment strategies (transformation 
initiatives) will be made with the submission of the fiscal year 2003 
budget, would you indicate where the Department is now in reaching 
investment and programmatic decisions based on the QDR and other 
reviews?
    Secretary Wolfowitz. Detailed deliberations on the development of 
the defense component of the President's fiscal year 2003 budget 
submission are currently underway. These deliberations are focused on 
making tangible progress toward meeting the Department's six critical 
operational goals for transformation and supporting the global war on 
terrorism.

    42. Senator Collins. Mr. Secretary, could you address specifically 
what role our Guard and Reserve Forces were considered to play in the 
Quadrennial Defense Review (QDR) prior to September 11, vs. the role 
for which they are now being considered? Prior to the attacks, did the 
Department foresee the impending requirement for a new framework of 
homeland defense in which our Guard and Reserve play such a critical 
role?
    Secretary Wolfowitz. During the QDR development process, the 
participants acknowledged that there was a significant role for the 
Reserve components (RC) in homeland security, but the exact scope of 
that role was assigned to the follow-on review of the RC.
    Following the terrible destruction of September 11, it was clear 
that the first military response to a major disaster within the 
continental United States could well be by Reserve Forces, not by 
Active forces. The RC has always been viewed by their community leaders 
as the first military responders. The September attacks resulted in a 
clearer picture of the need for trained and ready RC forces to respond 
to domestic missions. As stated by Secretary Rumsfeld during the 
release of the QDR-2001 Final Report, there will be a follow-on 
comprehensive review to address the role of the RC in meeting our 
national military strategic objectives. This review will include a 
determination of the exact roles and missions for our Reserve 
Components in Homeland Security.


    43. Senator Collins. Mr. Secretary, the QDR addresses the fact that 
the performance of human resources intelligence (HUMINT) must be 
optimized, and following the September 11 attacks, there appears to be 
an acknowledgment that the decline in our investment in Human 
Intelligence has created a weakness in our intelligence collection. 
Apart from the issue of quantity, how do you plan to address the issue 
of quality of collection?
    Secretary Wolfowitz. Following the Gulf War and the intelligence 
lessons learned from that conflict, DOD directed quite a lot of 
attention to human resources intelligence (HUMINT). Most notably, the 
Defense HUMINT Service was established in 1995, which consolidated 
under the Director, Defense Intelligence Agency, overall responsibility 
for DOD HUMINT (DHS) policy, plans and operations. One of the keystones 
of DHS strategic vision has been to capitalize on the existing global 
presence afforded DOD by the Defense Attache System and other forward 
deployed DHS resources. These were brought to bear immediately after 
the outbreak of conflict on September 11, 2001.
    In order to enhance the quality of the HUMINT collection to support 
the war effort, we have initiated a number of actions. These include:

        <bullet> We reprioritized the tasking of existing DOD HUMINT 
        resources. We forward deployed to the theater and other areas 
        of known or suspected terrorist activities, DHS [deleted] 
        officers, strategic debriefers and linguists. We are 
        cooperating fully with the tactical intelligence assets of our 
        deployed military forces, as well as with those of other 
        intelligence organizations. We are seeing the results of this 
        effort in the quality of intelligence we are developing from 
        our interrogation of enemy prisoners, exploitation of captured 
        documents, and effective use of sources.
        <bullet> Using the funds Congress appropriated to enhance our 
        intelligence effort, we are in the process of identifying and 
        hiring as contractors former military and intelligence 
        personnel with HUMINT, language and other professional 
        expertise that would otherwise take a very long time to 
        ``grow.'' These personnel are beginning to come onboard, and 
        will make a major difference in the development of HUMINT to 
        support operations.
        <bullet> We are aggressively pursuing cooperative relationships 
        with other Government agencies to ensure proper focus and 
        synergy of effort. We are also working very hard with our 
        allies to develop sources.

                          SHIPBUILDING STUDY 

    44. Senator Collins. Mr. Secretary, several studies feed into the 
preparation of the QDR, including one undertaken by Under Secretary 
Aldridge on the future of shipbuilding. Besides the brief reference to 
force structure numbers for our naval forces found in the QDR, are 
there any other conclusions or results of that study which you could 
share with this committee?
    Secretary Wolfowitz. In addition to QDR input regarding naval force 
structure, the Under Secretary of Defense for Acquisition Technology 
and Logistics (USD(AT-L))-led Shipbuilding Study, concluded that 
several additional efforts should be initiated to address the Navy's 
longer-term needs and assist in transforming the naval force of the 
future. USD(AT&L) tasked the Secretary of the Navy to develop a plan 
that lays the course for at-sea experimentation, simulation, and 
warfighting with the goal of identifying tactics, doctrine and 
technology requirements to support future Navy forces. USD(AT&L) 
chartered a Defense Science Board task force to review aircraft carrier 
utilization in the future. The task force is expected to complete 
deliberations in Summer 2002. USD(AT&L) also initiated a study to 
review the effectiveness of a mix of surface combatants with differing 
capabilities and displacements. Finally, we initiated a very-high-speed 
ship research program that will help shape the future Navy.

    [Whereupon, at 12:07 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
